Office of Audits and Evaluations
Report No. AUD-12-011


The FDIC’s Examination Process for Small
Community Banks




                                   August 2012
                                      Executive Summary

                                      The FDIC’s Examination Process for Small
                                      Community Banks
                                                                                     Report No. AUD-12-011
                                                                                                August 2012

Why We Did The Audit
On February 10, 2012, the Chairman of the United States Senate Committee on Banking, Housing, and
Urban Affairs requested that the Inspectors General of the FDIC, the Department of the Treasury, the
Board of Governors of the Federal Reserve System, and the National Credit Union Administration
conduct audits of their respective agencies’ examination processes for small community banks and credit
unions. The Chairman’s request was prompted by concerns from community banks and credit unions that
examinations were being conducted without clear standards or consistent application of agency policies
and procedures, which could discourage business growth and responsible lending. The request indicated
that the results of the audits would help the Committee to better understand the supervisory processes at
the agencies and facilitate the Committee’s efforts to address concerns raised by community banks and
credit unions.

The objectives of our performance audit were to report on: (1) the FDIC’s examination process for small
community banks, including examination timelines and how the FDIC ensures consistency in the
administration of examinations across the country, and (2) the ability of FDIC-supervised institutions to
question examination results, such as through the Office of the Ombudsman (OO), the appeals process, or
informal channels, and the frequency and success of such appeals. The scope of our review, 2007-2011,
was selected to take into account examination timeframes and appeals processes both before and during
the financial crisis. The audit did not include an assessment of the adequacy or the effectiveness of these
processes.


Background
Bank supervision and consumer protection are cornerstones of the FDIC’s efforts to ensure the stability
of, and public confidence in, the nation’s financial system. The FDIC’s supervision and consumer
protection programs promote the safety and soundness of FDIC-supervised institutions, help protect
consumer rights, and further community investment initiatives. As of December 31, 2011, the FDIC was
the primary federal regulator for 4,598 state-chartered financial institutions that were not members of the
Federal Reserve System. A total of 4,293 (or 93 percent) of these institutions were small community
banks with assets totaling $1 billion or less.

Within the FDIC, the Division of Risk Management Supervision (RMS) has primary responsibility for the
safety and soundness of FDIC-supervised institutions. RMS conducts onsite risk management
examinations of institutions to assess their overall financial condition, management practices and policies,
and compliance with applicable laws and regulations. During 2011, RMS conducted 2,712 statutorily-
required risk management examinations. RMS also conducts specialty examinations that cover such areas
as trust department operations, information technology controls, and institution compliance with the Bank
Secrecy Act. During 2011, RMS conducted 6,002 specialty examinations. The FDIC’s Division of
Depositor and Consumer Protection (DCP) has primary responsibility for protecting consumer rights.
DCP conducts onsite examinations of institutions to assess compliance with consumer protection laws
and regulations and the extent to which institutions meet community needs under the Community
Reinvestment Act (CRA). During 2011, DCP conducted 1,757 CRA/compliance examinations. In
addition, the FDIC’s Office of Complex Financial Institutions (OCFI) has primary responsibility for
providing a comprehensive focus on the supervisory, insurance, and resolution risks presented to the
FDIC by the largest and most complex financial institutions.



                                  To view the full report, go to www.fdicig.gov
  Executive Summary
                                     The FDIC’s Examination Process for Small
                                     Community Banks
                                                                                     Report No. AUD-12-011
                                                                                                August 2012


Audit Results
The FDIC has established and implemented a nationwide program for planning, conducting, reporting,
and evaluating the effectiveness of its examinations of FDIC-supervised community institutions. With
respect to examination timelines, the risk profile of every bank is different, even within a similar size
range and rating, so actual examination hours and timeframes can vary. We did find that, in broad terms,
the cycle time for conducting risk management examinations increased significantly as the supervisory
ratings for, and condition of, the institution deteriorated. We also noted that overall cycle time for well-
rated institutions (1 or 2 ratings) increased to a limited degree during the period covered by our review,
which the FDIC attributed to policy changes that increased baseline procedures and allowed for more
examiner discretion in expanding the scope of their examinations, based on identified risks.

As it relates to the time it takes the FDIC to issue an examination report following onsite work, that phase
of the examination process generally ranged from:

        2 to 4 weeks for institutions rated 1 or 2; and
        6 to 9 weeks for institutions rated 3, 4, or 5.

The difference in report processing timeframes can generally be attributed to the additional complexity
and volume of deficiencies associated with troubled institutions, the level of review required to ensure
the reports fully support lower ratings and appropriate supervisory actions, and examiners working with
bank management and other regulatory agencies to reach agreement on the examination findings and
supervisory actions before the final report is issued.

We also collected examination timeline statistics for compliance examinations. Generally, we identified
a trend similar to what we found with risk management examinations—longer overall cycle times for
lower-rated institutions. However, unlike risk management examinations, elapsed days between onsite
examination work and the issuance of the final report did not vary much according to ratings from 2009
forward, averaging about 1 month.

Regarding how consistently the FDIC administers examinations in its various regions, the FDIC has
established the following controls and practices intended to promote a consistent examination process
while being mindful that examiners must consider unique circumstances and risk factors associated with
each institution:

        Examination policy and guidance.
        Training programs for examiners.
        Multiple levels of review for examination reports, including in certain circumstances by
         headquarters officials.
        Standards and guidance for applying supervisory actions.
        Quality control reviews of key regional and field office examination activities.
        Coordination with other federal and state regulatory agencies on matters of mutual interest.

Concerning the ability of FDIC-supervised institutions to question examination results, the FDIC
encourages examiners and bankers to make a good-faith attempt to resolve disputes through informal
dialogue during the examination. According to FDIC officials, many disputes are successfully resolved in
this manner. Other opportunities for such a dialogue include exit meetings with bank management,


                                  To view the full report, go to www.fdicig.gov
  Executive Summary
                                    The FDIC’s Examination Process for Small
                                    Community Banks
                                                                                    Report No. AUD-12-011
                                                                                               August 2012

discussions during the reporting process to clarify issues, and meetings with an institution’s board of
directors at which the examination results are presented. The FDIC also asks each institution, at the end
of a risk management examination, to complete a Post-Examination Survey to help the FDIC in
improving the efficiency and quality of its examinations.

When agreement on key issues such as examination ratings, loan loss reserve provisions, or classifications
of significant loans cannot be reached informally, institutions may request a formal review by the Director
of RMS, DCP, or OCFI, as appropriate. A total of 41 such requests were made during the 5-year period
ended December 31, 2011. Of this number, one was sustained and three were partially sustained.
According to FDIC officials, few requests for review are sustained because the applicable Director
usually finds that the initial determinations are consistent with FDIC policy.

Institutions that dispute the results of the directors’ reviews may appeal to the Supervision Appeals
Review Committee (SARC), which is outside of the examination and supervision process. The SARC’s
decisions on material supervisory determinations are final. A total of 23 appeals were filed with the
SARC during the 5-year period ended December 31, 2011. Of this number, one appeal was partially
sustained. The remaining appeals were either denied or lacked grounds for an appeal to the SARC. In
reviewing the SARC determinations for appeals that were denied, we noted that the SARC considered the
underlying merits of both the institutions’ and the examiners’ positions and, as such, considered the
substance of the disagreement, and not simply whether or not the examiners followed established policy.

In addition, bankers may question examination results in enforcement action cases filed by the FDIC with
the Office of Financial Institution Adjudication (OFIA) administrative law judge, who conducts hearings
and recommends decisions associated with formal enforcement actions. Bankers may also contact the
FDIC’s OO, which can be used to discuss and resolve concerns associated with any aspect of the
examination process in a confidential forum.

Finally, while not directly related to the objectives of our audit, our report discusses various FDIC
initiatives used to further its dialogue and efforts to better understand the challenges and opportunities
facing community banks. Such actions help to ensure that the FDIC and others significant to the financial
industry identify and discuss community banking-related issues and take action to address those issues.


Corporation Comments
Subsequent to the issuance of our draft report, FDIC officials provided additional information for our
consideration, and we revised our report to reflect this information, as appropriate. On August 29, 2012,
the RMS Director provided a written response to a draft of this report on behalf of the Corporation. That
response is provided in its entirety in Appendix 9.

In the response, the RMS Director noted the thoroughness of the draft report and concurred with our
observations about increased examination cycle and report processing timeframes. The Director also
acknowledged the information in the report regarding quality control practices that promote consistency
in the examination process and encourage examiners and bankers to informally resolve disputes during
examinations. Concerning our observations on the formal dispute resolution process, the Director
confirmed that changes to the decisional deadlines have enabled formal reviews and appeals to be
processed within applicable timeframes.



                                 To view the full report, go to www.fdicig.gov
                                 Contents

                                                                Page
Background                                                        2

Audit Results                                                     4

The FDIC’s Oversight of Community Banks                           6

  Examination Timelines                                           7
    Tracking and Measuring Examination Timeframes                 7
    The Examination Process Tied to Available Timeframe Data      9

   Control Processes for Examination Consistency                 16
     Examination Standards and Guidance                          16
     Examiner Training Activities                                17
     Supervisory Review Process                                  18
     Supervisory Actions                                         20
     Quality Assurance Reviews and Other Tools for Monitoring    22
       Examination Processes
     Coordination with External Councils and Working Groups      24

Protocols for Questioning FDIC Examination Results               26

  Informal Protocols                                             27
      Before and During the Onsite Examination                   27
      Exit Meeting with Management                               28
      Following the Onsite Examination                           28

  Formal Protocols for Appealing Material Supervisory            29
  Determinations
     Definition of Material Supervisory Determinations           29
     Requests for Review                                         30
     Appeals to the Supervision Appeals Review Committee         32

  Other Avenues for Questioning Examination Results              34
     Administrative Law Judge Process                            34
     Office of the Ombudsman                                     35
     Other Points of Contact                                     37

FDIC Initiatives Related to Community Banks                      37

  FDIC Advisory Committee on Community Banking                   37

  Other Initiatives                                              38

Corporation Comments and OIG Evaluation                          38
                                  Contents

                                                                      Page
Appendices
  1. Objectives, Scope, and Methodology                                39
  2. The FDIC’s Examination Processes                                  42
  3. Laws and Rules and Regulations                                    47
  4. Examiner and Financial Institution Guidance                       49
  5. Examiner Training                                                 52
  6. FFIEC Task Forces                                                 54
  7. Glossary of Terms                                                 55
  8. Acronyms                                                          59
  9. Corporation Comments                                              60

Tables
   1. U.S. Institutions Supervised by the FDIC, FRB, and OCC as of      3
        12/31/2011
   2. FDIC Examinations, 2011                                           7
   3. Risk Management Examination Benchmarks                            8
   4. Compliance/CRA Examination Benchmarks                             9
   5. Regional Reviews, 2007-2011                                      23
   6. Frequency and Types of Requests for Review, 2007-2011            31
   7. Frequency and Types of SARC-Level Appeals, 2007-2011             33
   8. FDIC Enforcement Action Cases Referred to OFIA, 2007-2011        35
   9. Examination Concerns Noted During Outreach Meetings,             36
        2007-2011
 10. Summary of OO Contacts by Major Issue Areas, 2007-2011            37
 11. Examples of Laws and Rules and Regulations Applicable to the      47
        FDIC’s Examination and Supervision Processes
 12. FFIEC Task Forces and Related Responsibilities and Duties         54

Figures
   1. Risk Management Examinations – Average Onsite Turnaround         10
        Days for Institutions under $1 Billion in Assets, 2007-2011
   2. Risk Management Examinations – Average Report Turnaround         11
        Days for Institutions under $1 Billion in Assets, 2007-2011
   3. Risk Management Examinations – Average Total Turnaround          12
        Days for Institutions under $1 Billion in Assets, 2007-2011
   4. Compliance Examinations – Average Onsite Turnaround Days         13
        for Institutions under $1 Billion in Assets, 2007-2011
   5. Compliance Examinations – Average Report Turnaround Days         14
        for Institutions under $1 Billion in Assets, 2007-2011
   6. Compliance Examinations – Average Total Turnaround Days          15
        for Institutions under $1 Billion in Assets, 2007-2011
   7. Overview of the Risk Management Examination Review Process       19
Federal Deposit Insurance Corporation
3501 Fairfax Drive, Arlington, Virginia 22226                                    Office of Inspector General


DATE:                                       August 31, 2012

MEMORANDUM TO:                              Martin J. Gruenberg
                                            Acting Chairman


                                            /Signed/
FROM:                                       Jon T. Rymer
                                            Inspector General

SUBJECT:                                    The FDIC’s Examination Process for Small Community
                                            Banks (Report No. AUD-12-011)


This report presents the results of our audit of the FDIC’s examination process for small
community banks. We initiated this audit in response to a request, dated February 10,
2012, from the Chairman of the United States Senate Committee on Banking, Housing,
and Urban Affairs (SBC Chairman) to the Inspectors General of the Department of the
Treasury (Treasury), the Board of Governors of the Federal Reserve System (FRB), the
FDIC, and the National Credit Union Administration (NCUA). The Chairman’s request
was prompted by concerns from community banks and credit unions that examinations
were being conducted without clear standards or consistent application of agency policies
and procedures, which could discourage business growth and responsible lending. The
request indicated that the audit results would help the Committee to better understand the
federal banking agencies’ supervisory processes and facilitate efforts to address concerns
raised by community banks and credit unions.

The Treasury, FRB, and NCUA Inspectors General also initiated audits at their respective
agencies in response to the SBC Chairman’s request. We coordinated our audit scope
and methodology with the other Inspectors General.

Although the SBC Chairman’s request specifically focused on small community banks
and credit unions, the federal banking agencies do not have a standard definition for what
constitutes “small” community banks. Therefore, for the purposes of this report, we
focused primarily on the processes applicable to “community institutions,” which are
generally defined by the federal banking agencies as having less than $1 billion in total
assets.

Consistent with the SBC Chairman’s request, the audit objectives were to report on:

     1. the FDIC’s examination process for small community banks, including
        examination timelines and how the FDIC ensures consistency in the
        administration of examinations across the country; and
    2. the ability of FDIC-supervised institutions to question examination results, such
       as through the Office of the Ombudsman (OO),1 the appeals process, or informal
       channels, and the frequency and success of such appeals.

To address our objectives, we collected and summarized relevant information on the
FDIC’s examination processes and the various means available to FDIC-supervised
institutions to appeal or question examination results. The scope of our review,
2007-2011, was selected to take into account examination timeframes and appeals
processes both before and during the financial crisis. We confirmed the completeness of
the information we collected with FDIC divisions and offices; however, our audit did not
include an assessment of the adequacy or effectiveness of these processes.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Appendix 1 of this report includes additional details on our
objectives, scope, and methodology. Appendices 2-6 provide overviews of the FDIC’s
examination processes, laws and rules and regulations applicable to examination and
supervision activities, examiner and financial institution guidance, examiner training
activities, and the Federal Financial Institutions Examination Council’s2 (FFIEC) task
forces. Appendix 7 contains a glossary of key terms, and Appendix 8 contains a list of
acronyms. The Corporation’s comments on our report are presented in Appendix 9


Background
The purpose of federal bank supervision is to ensure that institutions throughout the
financial system are operating in a safe and sound manner and complying with banking
laws and regulations in the provision of financial services. FDIC-insured institutions are
supervised by one of three federal banking agencies, as follows:

       The FDIC supervises all state-chartered banks and thrifts that are not members of
        the Federal Reserve System.

       The FRB supervises state-chartered commercial banks that are members of the
        Federal Reserve System.

       The Office of the Comptroller of the Currency (OCC) supervises all
        federally-chartered banks and thrifts.

The FDIC and FRB share supervision of state-chartered banks and thrifts with the state
banking departments. In doing so, the federal and state regulators coordinate their
supervisory programs and, in many instances, alternate examinations or conduct joint
examinations. Higher-level coordination between the federal banking agencies and the

1
  See http://www.fdic.gov/regulations/resources/ombudsman/index.html for additional information on the
FDIC’s OO.
2
  Certain terms that are underlined when first used in this report are defined in Appendix 7, Glossary of
Terms.


                                                    2
states on policy matters is conducted through various channels, including the FFIEC and
the Conference of State Bank Supervisors (CSBS).

The FFIEC is a formal interagency body empowered to prescribe uniform principles,
standards, and report forms for the federal examination of financial institutions by the
FDIC, FRB, OCC, NCUA, and the Consumer Financial Protection Bureau (CFPB) and to
make recommendations to promote uniformity in the supervision of financial institutions.
In 2006, the State Liaison Committee (SLC) was added to the FFIEC. The SLC was
established by the FFIEC to encourage the application of uniform examination principles
and standards by state and federal agencies and to allow state regulators to participate in
the development of those principles and standards. The SLC includes representatives
from the CSBS, the American Council of State Savings Supervisors, and the National
Association of State Credit Union Supervisors.

Bank supervision and consumer protection are cornerstones of the FDIC’s efforts to
ensure the stability of, and public confidence in, the nation’s financial system. The
FDIC’s supervision and consumer protection programs promote the safety and soundness
of FDIC-supervised institutions, help protect consumer rights, and further community
investment initiatives. As of December 31, 2011, the FDIC was the primary federal
regulator for 4,598 state-chartered financial institutions that were not members of the
Federal Reserve System. A total of 4,293 (or 93 percent) of these institutions were small
community banks with assets totaling $1 billion or less. The number and total assets of
U.S. institutions supervised by each federal regulator are shown in Table 1 below.

 Table 1: U.S. Institutions Supervised by the FDIC, FRB, and OCC as of 12/31/2011*
   Federal            Total U.S.          Total Community           Total Institution         Total Community
  Regulator          Institutions           Institutions               Assets***            Institution Assets***
 FDIC**                         4,598                     4,293                  $2,341                          $864
 FRB                              828                       724                   1,891                           170
 OCC**                          1,931                     1,683                   9,651                           385
 Total                          7,357                     6,700                 $13,883                        $1,419
 Source: FDIC Division of Insurance and Research (DIR), Quarterly Banking Profile, Fourth Quarter 2011,
 and Smaller Bank Profile, Fourth Quarter 2011.
 * This table excludes the domestic branches of foreign banks operating in the United States.
 ** In accordance with the Dodd-Frank Wall Street Reform and Consumer Protection Act (the Dodd-Frank
 Act), the former Office of Thrift Supervision transferred primary oversight responsibilities for thrift institutions
 to the FDIC and OCC in July 2011.
 *** Institution assets are presented in billions of dollars.

From 2007 to early 2011, one FDIC division was responsible for conducting all
examinations—the Division of Supervision and Consumer Protection (DSC). In
February 2011, the FDIC implemented an organizational change that re-designated DSC
as the Division of Risk Management Supervision (RMS), responsible for risk
management and specialty examinations. At the same time, the FDIC transferred
responsibility for conducting compliance and Community Reinvestment Act (CRA)
examinations to a new division—the Division of Depositor and Consumer Protection
(DCP). In addition, the Office of Complex Financial Institutions (OCFI) was created to


                                                         3
provide a comprehensive focus on the supervisory, insurance, and resolution risks
presented to the FDIC by the largest and most complex financial institutions.


Audit Results
The FDIC has established and implemented a nationwide program for planning,
conducting, reporting, and evaluating the effectiveness of its examinations of
FDIC-supervised community institutions. With respect to examination timelines, the risk
profile of every bank is different, even within a similar size range and rating, so actual
examination hours and timeframes can vary. We did find that, in broad terms, the cycle
time for conducting risk management examinations increased significantly as the
supervisory ratings for, and condition of, an institution deteriorated. We also noted that
overall cycle time for well-rated institutions (1 or 2 ratings) increased to a limited degree
during the period covered by our review, which the FDIC attributed to policy changes
that increased baseline procedures and allowed for more examiner discretion in
expanding the scope of their examinations, based on identified risks.

As it relates to the time it takes the FDIC to issue an examination report following onsite
work, that phase of the examination process generally ranged from:

       2 to 4 weeks for institutions rated 1 or 2; and
       6 to 9 weeks for institutions rated 3, 4, or 5.

The difference in report processing timeframes can generally be attributed to the
additional complexity and volume of deficiencies associated with troubled institutions,
the level of review required to ensure the reports fully support lower ratings and
appropriate supervisory actions, and examiners working with bank management and
other regulatory agencies to reach agreement on the examination findings and
supervisory actions before the final report is issued.

We also collected examination timeline statistics for compliance examinations.
Generally, we identified a trend similar to what we found with risk management
examinations—longer overall cycle times for lower-rated institutions. However, unlike
risk management examinations, elapsed days between onsite examination work and the
issuance of the final report did not vary according to ratings from 2009 forward,
averaging about 1 month.

Regarding how consistently the FDIC administers examinations in its various regions, the
FDIC has established the following controls and practices intended to promote a
consistent examination process while being mindful that examiners must consider unique
circumstances and risk factors associated with each institution:

       Examination policy and guidance.
       Training programs for examiners.



                                              4
       Multiple levels of review for examination reports, including in certain
        circumstances by headquarters officials.
       Standards and guidance for applying supervisory actions.
       Quality control reviews of key regional and field office examination activities.
       Coordination with other federal and state regulatory agencies on matters of
        mutual interest.

Concerning the ability of FDIC-supervised institutions to question examination results,
the FDIC encourages examiners and bankers to make a good-faith attempt to resolve
disputes through informal dialogue during the examination. According to FDIC officials,
many disputes are successfully resolved in this manner. Other opportunities for such a
dialogue include exit meetings with bank management, discussions during the reporting
process to clarify issues, and meetings with an institution’s board of directors (BOD) at
which the examination results are presented. The FDIC also asks each institution, at the
end of a risk management examination, to complete a Post-Examination Survey to help
the FDIC in improving the efficiency and quality of its examinations.

When agreement on key issues such as examination ratings, loan loss reserve provisions,
or classifications of significant loans cannot be reached informally, institutions may
request a formal review by the Director of RMS, DCP, or OCFI, as appropriate. A total
of 41 such requests were made during the 5-year period ended December 31, 2011. Of
this number, one was sustained and three were partially sustained. According to FDIC
officials, few requests for review are sustained because the applicable Director usually
finds that the initial determinations are consistent with FDIC policy.

Institutions that dispute the results of the directors’ reviews may appeal to the
Supervision Appeals Review Committee (SARC), which is outside of the examination
and supervision process. The SARC’s decisions on material supervisory determinations
are final. A total of 23 appeals were filed with the SARC during the 5-year period ended
December 31, 2011. Of this number, one appeal was partially sustained. The remaining
appeals were either denied or lacked grounds for an appeal to the SARC. In reviewing
the SARC determinations for appeals that were denied, we noted that the SARC
considered the underlying merits of both the institutions’ and the examiners’ positions
and, as such, considered the substance of the disagreement, and not simply whether or not
the examiners followed established policy.

In addition, bankers may question examination results in enforcement action cases filed
by the FDIC with the Office of Financial Institution Adjudication (OFIA) administrative
law judge (ALJ), who conducts hearings and recommends decisions associated with
formal enforcement actions. Bankers may also contact the FDIC’s OO, which can be
used to discuss and resolve concerns associated with any aspect of the examination
process in a confidential forum.

Finally, while not directly related to the objectives of our audit, our report discusses
various FDIC initiatives used to further its dialogue and efforts to better understand the
challenges and opportunities facing community banks. Such actions help to ensure that


                                             5
the FDIC and others significant to the financial industry identify and discuss community
banking-related issues and take action to address those issues.


The FDIC’s Oversight of Community Banks
Although community institutions with under $1 billion in assets hold less than 11 percent
of total banking assets, they provide 37 percent of the loans made by the banking industry
to small businesses.3 The FDIC serves as the primary federal regulator for the majority
of community institutions in the nation.

The FDIC’s supervision program, administered by RMS and DCP, promotes the safety
and soundness of FDIC-supervised institutions, protects consumers’ rights, and promotes
community investment initiatives by FDIC-supervised institutions. RMS has primary
responsibility for promoting safe and sound financial institution practices through:

       periodic, onsite risk management examinations;
       offsite monitoring,4 including the review of quarterly financial data;
       the issuance of supervisory and enforcement actions;
       the publication of guidance and policy;
       ongoing communications with industry officials; and
       the review of applications submitted by FDIC-supervised institutions.

RMS also conducts specialty examinations, usually performed during risk management
examinations, that cover trust department operations, information technology controls,
and institution compliance with the Bank Secrecy Act (BSA).

DCP conducts separate examinations to assess an institution’s compliance with consumer
protection statutes and regulations for all state nonmember banks supervised by the
FDIC.5 DCP also conducts CRA examinations for all state nonmember banks to assess
the extent to which an institution is meeting community needs. As part of the compliance
examination process, the FDIC reviews substantive compliance issues as well as the
accuracy and completeness of information and disclosures that institutions provide to
consumers.

Table 2 provides statistics on the number and types of examinations conducted by the
FDIC in 2011.



3
  This information was provided by the FDIC’s DIR, as of March 31, 2012.
4
  The FDIC’s offsite review program is designed to identify emerging supervisory concerns and potential
problems so that supervisory strategies can be adjusted appropriately. For example, offsite reviews are
performed quarterly for each bank that appears on the Offsite Review List. Regional management is
responsible for implementing procedures to ensure that Offsite Review findings are factored into
examination schedules and other supervisory activities.
5
  For FDIC-supervised banks under the primary jurisdiction of the CFPB, DCP officials stated that their
review is limited to the laws and regulations not enumerated in the Dodd-Frank Act.

                                                    6
    Table 2: FDIC Examinations, 2011
    Examination Type                                  2011
    Risk Management:
     State Nonmember Banks                                        2,477
     Savings Banks                                                  227
     State Member Banks*                                              4
     National Banks*                                                  1
     Savings Associations*                                            3
       Subtotal                                                   2,712
    Compliance/CRA:
     Compliance-only                                                921
     Compliance/CRA                                                 825
     CRA-only                                                        11
       Subtotal                                                   1,757
    Specialty:
     Trust Department Operations                                    466
     Information Technology Controls                              2,802
     Compliance with BSA                                          2,734
       Subtotal                                                   6,002
    Total                                                        10,471
    Source: FDIC 2011 Annual Report.
    * The FDIC may conduct examinations of state member banks,
    national banks, and savings associations, when needed for insurance
    purposes.

More information on the FDIC’s processes for risk management and compliance/CRA
examinations can be found in Appendix 2.

Examination Timelines
Tracking and Measuring Examination Timeframes

Although the FDIC has performance goals applicable to its various examination
functions, we were informed by RMS senior management that they currently do not have
specific goals for examination timeframes,6 lest they create incentives that may cause
examiners to curtail work to meet time budgets when encountering potential problems.
Instead, the examination team should contact their field and/or regional management
when problems are encountered and additional time is needed to complete the
examination beyond the budget developed during pre-examination planning.

Despite the absence of goals for examination timeframes, the FDIC does track key dates
for all risk management and compliance examinations, including:

          Examination Start Date, which is the date the examination team begins onsite
           work;



6
 We found that the FDIC did have timeframe goals for compliance/CRA examinations in 2010 and 2011.
For more details on these goals, see page 15 in this report.

                                                      7
          Date Examination Completed, which is the date the examination team leaves the
           bank and submits a draft examination report for supervisory review; and
          Date Mailed, which is the date the final report is mailed to the institution.7

Using these key dates, the FDIC tracks and monitors the time spent by the examination
team for fieldwork and report processing.

In addition, the FDIC has benchmarks that are used to project staffing requirements. The
benchmarks are estimates of staff hours for an average risk management examination of
banks by asset size and CAMELS8 ratings. According to RMS, the risk profile of every
bank is different, even within a similar size range and rating, so RMS managers expect to
see actual examination hours vary from applicable benchmarks.

The current benchmarks used by RMS for risk management examinations range, as
shown in Table 3, from 335 hours to 1,820 hours for institutions with up to $1 billion in
assets, depending on asset size and ratings.

    Table 3: Risk Management Examination Benchmarks
          Asset Size              CAMELS                  CAMELS               CAMELS
                                 Composite               Composite            Composite
          ($ millions)         Rating of 1 or 2*         Rating of 3*       Rating of 4 or 5*
           Under 50                  335                     515                  720
            50-100                   455                     690                  975
            100-150                  520                     795                 1,120
            150-200                  575                     870                 1,225
            200-250                  605                     915                 1,285
            250-500                  710                    1,070                1,500
           500-1,000                 850                    1,295                1,820
    Source: RMS Business Analysis and Decision Support Section.
    * Each benchmark represents examination hours for a risk management examination of an
    FDIC-supervised institution with the associated asset size and rating.

The current benchmarks used by DCP for compliance/CRA examinations are shown in
Table 4 for institutions with up to $1 billion in assets:



7
  DIR uses the examination mail date (also referred to as the “transmittal date”) to determine when deposit
insurance assessment pricing changes become effective for financial institutions. See the FDIC OIG’s
audit report, Reliability of Supervisory Information Accessed Through the Virtual Supervisory Information
on the Net (ViSION) System (AUD-08-019, dated September 25, 2008), for more information.
8
  Examiners review the institution’s risk exposure in six component areas, using what is known as the
Uniform Financial Institution Rating System (UFIRS), commonly referred to as the CAMELS rating
system -- (Capital adequacy, Asset quality, Management, Earnings, Liquidity, and Sensitivity to market
risk). Evaluations of CAMELS components consider the institution’s size and sophistication, the nature
and complexity of its activities, and its risk profile. At risk management examinations, an institution is
rated for each of the CAMELS components and assigned a composite rating, which generally bears a close
relationship to the component ratings. The component and composite ratings are scored on a scale of 1
(best) to 5 (worst).

                                                     8
    Table 4: Compliance/CRA Examination Benchmarks
       Asset Size                                                                Joint
                          Compliance-Only            CRA-Only
                                                                            Compliance/CRA
       ($ millions)        Examinations*           Examinations*
                                                                             Examinations*
         Under 50                  170                    55                      225
          50-100                   215                    65                      280
          100-250                  250                    95                      345
          250-500                  320                    130                     450
         500-1,000                 380                    175                     555
    Source: RMS Business Analysis and Decision Support Section.
    * Each benchmark represents examination hours for a compliance and/or CRA examination of
    an FDIC-supervised institution with the associated asset size.

We noted that RMS maintains tracking data on the actual hours spent on each
examination by examination type and by asset size and ratings categories. This
information is used to show the range of examination hours above and below the
benchmarks and to report average examination hours, by region, compared to each
benchmark category. RMS managers use these reports to monitor examination staff
hours against the benchmarks to detect trends and plan future staffing needs.

The Examination Process Tied to Available Timeframe Data

For both risk management and compliance examinations, RMS also maintains tracking
information from the start to the end of onsite fieldwork and to the issuance of the final
examination report. The following sections present statistical data on the average
turnaround times, in days, for risk management and compliance examinations.9 The
scope of our review, 2007-2011, was selected to take into account examination
timeframes and appeals processes both before and during the financial crisis. Figures 1
through 6 cover average onsite days, average report processing days, and average total
days combining both onsite and report processing times. RMS and DCP officials do not
routinely track the average days for pre-examination planning, but RMS officials
informed us that this phase of the examination typically takes 1-2 weeks.




9
 Turnaround time is defined by RMS as the number of calendar days from the start of a process until the
end of that process. For example, onsite turnaround time measures the number of calendar days from the
day the examination team starts onsite work at the institution’s offices until the day the team completes its
onsite work.

                                                      9
Risk Management Examinations. As shown in Figure 1, the average length of time
onsite for risk management examinations varied from 20 to 33 days for institutions rated
1 or 2 in 2007-2011 and from 42 to 66 days for institutions rated 3, 4, or 5. The most
notable trends are that the number of onsite days increased 20-27 percent for 1- or 2-rated
institutions, from their low in 2007 to their high in 2011, but onsite days decreased
12-16 percent for 4- or 5-rated institutions from their high in 2008 to their low in 2011.

 Figure 1: Risk Management Examinations – Average Onsite Turnaround Days
           for Institutions under $1 Billion in Assets, 2007-2011




                            70
                                            66
                                    64

                            60                        60
                                            58                   58
                                                                         57
                                    54                54         57
                                                                         52
                            50
                                                                 47
   Average Number of Days




                                            44                                        5 Rating
                                                      43
                                    42                                   43           4 Rating
                            40
                                                                                      3 Rating

                                                                         33           2 Rating
                                                                32
                                                     29                               1 Rating
                            30             28
                                    26

                                                      22         23      24
                                    20      20
                            20



                            10



                            0
                                 2007    2008     2009        2010    2011
                                                 Year End



Source: RMS Business Analysis and Decision Support Section.


Regarding the trend in 1- and 2-rated institutions, RMS officials indicated that, beginning
in 2007, there was a change in examination procedures that increased the baseline
procedures and allowed for more examiner discretion in expanding the scope of
examinations, depending on what examiners found onsite. Also, as RMS hired more
examination staff, there was more capacity to review areas of potential weakness in well-
rated banks, as well as new staff to train.

With respect to the trend in 4- and 5-rated institutions, RMS officials indicated that
examinations with initial downgrades to problem institution status typically took more
time than subsequent examinations, where problems had already been identified. The
majority of problem institutions were initially downgraded between 2008 and early 2010,
so RMS officials were not surprised that examination days trended downward in these
institutions.




                                                         10
Figure 2 shows that average report turnaround days varied widely in the beginning years
of the recent financial crisis, rising significantly from 2007 to 2008 for banks rated 2, 3,
4, or 5, but began to stabilize or decrease in 2009-2011. In addition, the turnaround time
for that phase of the examination process generally ranged from:

                                2 to 4 weeks for institutions rated 1 or 2; and
                                6 to 9 weeks for institutions rated 3, 4, or 5.

The difference in processing timeframes between well-rated and troubled institutions can
generally be attributed to the additional complexity and volume of deficiencies associated
with the troubled institutions, the level of review required to ensure the reports fully
supported lower ratings and appropriate supervisory actions, and examiners working with
bank management and other regulatory agencies to reach agreement on the examination
findings and supervisory actions before the final report was issued.

Figure 2: Risk Management Examinations – Average Report Turnaround Days
          for Institutions under $1 Billion in Assets, 2007-2011



                            70                        69

                                                      65
                                         59                                           60
                            60                       59
                                                                    56                        57
                                                                                      54
                                                                    53                        54
                                                                      53
                            50                                                        49
   Average Number of Days




                                      42                                                      45   5 Rating
                                                                                                   4 Rating
                            40
                                                                                                   3 Rating
                                                                                                   2 Rating
                                                                     31               32
                                                                                                   1 Rating
                            30                        29                                      30

                                           22
                            20      21
                                                                     15               16
                                                                                              16
                                                      13
                                         12
                            10



                            0
                                    2007           2008          2009              2010    2011
                                                                Year End



Source: RMS Business Analysis and Decision Support Section.


According to RMS officials, the trends in Figure 2 reflect the precipitous decline in the
industry beginning in 2007 and 2008, when problems were first identified and initial
downgrades were made. Processing times began to stabilize as additional report
reviewers were added in the regional offices and both examiners and review staff became
accustomed to addressing the common problems they were seeing.




                                                                        11
As reflected in Figure 3, the total turnaround days for risk management examinations,
combining both onsite and report processing times, show significant increases from 2007
to 2008 for banks rated 2, 3, 4, or 5, reflecting the increase in report processing times and
then stabilization over the years 2009-2011.

 Figure 3: Risk Management Examinations – Average Total Turnaround Days
           for Institutions under $1 Billion in Assets, 2007-2011



                            140
                                             131
                            130
                                            127
                            120                                  118
                                    113                 113
                                                                 110       114
                            110                         110                107
                                             103
                            100                        96        96
                                                                                         5 Rating
   Average Number of Days




                            90     85
                                                                           89
                                                                                         4 Rating
                                     84
                            80                                                           3 Rating

                            70                                                           2 Rating
                                                                 65
                                                        60                               1 Rating
                            60                                             62
                                             56
                                     48
                            50
                                                                 39
                            40                          37                 40
                                     32      33
                            30

                            20

                            10

                             0
                                  2007    2008      2009      2010      2011

                                                   Year End


Source: RMS Business Analysis and Decision Support Section.


As noted for the previous figures, RMS officials explained that the overall trends
observed were caused by the combination of changes in examination procedures in 2007,
the decline in ratings beginning in 2007, the significant addition of examination and
review staff to address the additional workload, and the subsequent stabilization of the
industry.




                                                        12
Compliance Examinations. For purposes of presenting meaningful information
pertaining to the timeframes for compliance examinations, we excluded timeframes for
CRA performance evaluations (which are rarely conducted as stand-alone assignments)
and instances where compliance examinations and CRA performance evaluations were
conducted together. In addition, we found that the statistics for compliance examinations
reflected few, if any, institutions rated 4 or 5 during 2007-2011.10 This caused the
turnaround days associated with those ratings to vary widely and did not provide
sufficient information for comparison and analysis purposes. As a result, we omitted this
data from our analysis.11

Figure 4 shows wide variability in the average onsite turnaround days for institutions
with a compliance rating of 3, which we attribute to the low level of institutions receiving
that rating. Generally, we identified a trend similar to what we found with risk
management examinations—longer overall cycle times for these lower-rated institutions.
The average onsite turnaround days for institutions rated 1 or 2 also show some
variability, but no significant trends.

Figure 4: Compliance Examinations – Average Onsite Turnaround Days
          for Institutions under $1 Billion in Assets, 2007-2011




                                160

                                140                                   144
                                         129
       Average Number of Days




                                120
                                                                                      113
                                100                                                                      3 Rating
                                                          85
                                80                                                                       2 Rating
                                                                                                         1 Rating
                                60               54

                                                  38
                                40                          34        33              40
                                         27       26
                                                           20         24              24
                                20       22

                                 0
                                      2007     2008     2009      2010            2011
                                                       Year End



Source: RMS Business Analysis and Decision Support Section.




10
   Similar to risk management examinations, compliance examinations also provide a rating from 1 to 5,
with 1 indicating a strong compliance position and 5 indicating an institution in need of the strongest
supervisory attention.
11
   The number of institutions that received a compliance rating of 3 was also low, ranging from 19 to 73
institutions in any particular year, but we decided to include the data for 3-rated institutions in Figures 4, 5,
and 6 because the information showed a steady trend for the average report turnaround days in Figure 5.



                                                            13
Another trend that we identified in the timeframe data for compliance examinations was
that average report processing times increased significantly from 2007 to 2011 for
institutions rated 1 or 2. Specifically, as shown in Figure 5, the average report turnaround
days increased from 12 days to 32 days for 1-rated institutions and from 18 days to
30 days for 2-rated institutions. There was little variation in the average report
turnaround days for 3-rated institutions.

Figure 5: Compliance Examinations – Average Report Turnaround Days
          for Institutions under $1 Billion in Assets, 2007-2011




                               40
                                                       35       35
                                             31          32           32
                                      31
      Average Number of Days




                                                        29      29          31
                               30             27                                      3 Rating
                                                                     30
                                                                28
                                                                                      2 Rating

                               20    18     18                                        1 Rating

                                      12
                               10



                               0
                                    2007   2008     2009      2010   2011
                                                   Year End



Source: RMS Business Analysis and Decision Support Section.


According to DCP management, the increase in the turnaround times was the result of
several changes in DCP’s examination process and staffing. Starting in 2008, DCP
introduced several new examination processes as a result of regulatory changes. These
changes included guidance related to third-party oversight, pre-exam planning
procedures, and changes to consumer protection laws and regulations. In addition, DCP
changed its consultation process in response to increased changes in financial products,
often offered by third-parties, which required additional review of complex issues.

Increases in compliance examination staff over the past several years also required
increased training and development. Field supervisors are delegated authority to process
1- and 2-rated reports without significant issues but, as a result of the increased need for
training and development of staff, many of the 1- and 2-rated reports were reviewed by
DCP review examiners, extending the review timeframes. DCP officials noted that
although the turnaround time had increased, it was still within established timeframes.




                                                        14
Figure 6 shows the average total turnaround times for compliance examinations,
combining both the average onsite and report turnaround days.

Figure 6: Compliance Examinations – Average Total Turnaround Days
          for Institutions under $1 Billion in Assets, 2007-2011




                              200
                              180                                              179
                                                                                                           3 Rating
                              160        160
     Average Number of Days




                                                                                            144            2 Rating
                              140
                                                                 120                                       1 Rating
                              120
                              100
                                                     85
                              80
                                                     65            66          63           70
                              60                                              53            56
                                        44           44           49
                              40         34
                              20
                               0
                                      2007        2008         2009         2010        2011
                                                              Year End


Source: RMS Business Analysis and Decision Support Section.


We identified FDIC timeframe goals for compliance/CRA examinations in 2010 and
2011, as follows:

                               2010: Issue final examination reports for at least 90 percent of favorably-rated
                                institutions within 90 days of the start of the examination for compliance-only
                                examinations and within 120 days of the start of the examination for joint
                                compliance/CRA examinations.

                               2011: Issue final examination reports for at least 90 percent of favorably-rated
                                institutions within 90 days of the start of onsite compliance-only or CRA-only
                                examinations and within 120 days of the start of joint onsite compliance/CRA
                                examinations.

                               2011: Issue final examination reports for at least 90 percent of unfavorably-
                                rated institutions within 150 days of the start of onsite compliance-only or
                                CRA-only examinations and within 180 days of the start of joint onsite
                                compliance/CRA examinations.

According to the FDIC’s Annual Plans, the Corporation successfully met these
performance targets. Additionally, DCP officials indicated that they continue to measure
examination performance in 2012.



                                                                   15
Control Processes for Examination Consistency
To address consistency in the administration of risk management and compliance/CRA
examinations across the country, the FDIC has a framework of controls in place that are
designed to consider the unique circumstances of each institution and the community in
which it operates, as well as to ensure that institutions in similar conditions are treated in
the same manner. The FDIC’s control framework includes examination standards and
guidance and examiner training. In addition, the FDIC ensures that appropriate
supervision is provided in a consistent manner using a multi-layered supervisory process
that involves:

        all levels of RMS supervision12 (field offices, regional offices, and headquarters)
         to review examination results, examiner conclusions, and the resulting
         examination reports and, when deemed appropriate, to consider the applicability
         of informal supervisory or formal enforcement actions; and

        ongoing interaction and coordination with financial institutions’ management and
         BODs.

The FDIC’s control framework also includes efforts to monitor bank performance and
responses to examination results and internal review and quality assurance processes to
further promote consistency in its examinations and supervision. Further, the FDIC
coordinates with a number of external councils and working groups on the federal and
state levels to assure that its examination and supervision of community banks are
consistent with other financial regulatory agencies.

Examination Standards and Guidance

The FDIC promotes safe and sound financial institution practices through a number of
means, including conducting regular risk management examinations. Further, when
appropriate, the FDIC has a range of informal and formal corrective actions available to
resolve supervisory concerns identified during risk management examinations. The
following sections discuss laws, rules and regulations, policies, and practices that
promote and help ensure consistent treatment of institutions in similar conditions.

Specific Examination Standards Established by the FDI Act and Rules and
Regulations. In addition to Section 10(b) of the FDI Act, which governs the FDIC’s
specific examination authority, the FDI Act also provides additional authorities, such as
those related to investigations and Prompt Corrective Actions (PCA) that govern the
FDIC’s examination, supervision, and enforcement processes. Further, the FDIC Rules
and Regulations provide guidance for examinations conducted by FDIC examiners. Such
guidance relates, but is not limited, to BSA compliance, restrictions related to brokered

12
  The FDIC’s internal control framework relates to both risk management and compliance/CRA
examinations. Appendix 2 provides information regarding both types of FDIC examination processes. As
indicated in Appendix 2, the compliance/CRA processes are similar to those used for risk management
examinations.

                                                 16
deposits, and safety and soundness standards. Appendix 3 provides examples of the laws
and rules and regulations applicable to the FDIC’s examination and supervision
processes.

Examination Guidance. As referenced earlier in the report, federal and state regulatory
agencies, including the FDIC, use a standard system known as the Uniform Financial
Institutions Rating System (UFIRS) to rate financial institutions. The UFIRS was
adopted by the FFIEC on November 13, 1979. UFIRS is commonly referred to as the
CAMELS rating system. Various changes in the banking industry and regulatory policies
prompted a revision of the rating system in December 1996. The revisions to UFIRS
include the addition of a sixth component addressing sensitivity to market risk, the
explicit reference to the quality of risk management processes in the management
component, and the identification of risk elements within the composite and component
rating descriptions.

The UFIRS takes into consideration certain financial, managerial, and compliance factors
that are common to all institutions. Under this system, the supervisory agencies endeavor
to ensure that all financial institutions are evaluated in a comprehensive and uniform
manner, and that supervisory attention is appropriately focused on institutions exhibiting
financial and operational weaknesses or adverse trends. Over the years, the UFIRS has
proved to be an effective supervisory tool for evaluating financial institutions on a
uniform basis and for identifying institutions requiring special attention.

In addition, examiners use the Uniform Interagency Consumer Compliance Rating
System to rate financial institutions during compliance/CRA examinations. As with the
UFIRS, each bank is assigned a consumer compliance rating based on a scale of 1
through 5 in increasing order of supervisory concern.

Further, the FDIC provides guidance to its examination staff and supervised financial
institutions primarily by issuing Regional Directors (RD) Memoranda, Financial
Institution Letters (FIL), examination manuals, and other forms of guidance, such as
Examination Documentation (ED) Modules. Such guidance promotes consistency in the
examination process. The guidance covers a variety of topics, informs financial
institutions of supervisory expectations, and, generally, communicates the FDIC’s
expectations and authorities. Appendix 4 provides additional information regarding the
policy and examination guidance the FDIC provides to its examination staff and financial
institutions.

Examiner Training Activities

The FDIC provides training to both risk management and compliance examination staff
through various means. To ensure that its examination staff is aware of the Corporation’s
expectations, training requirements, required commissions, and benchmarks, the FDIC
has issued substantial guidance that outlines such training and that contributes to
consistency in the training and examination processes. The FDIC’s training activities are
used to reinforce and provide practical experience regarding the FDIC’s standards
established in applicable guidance; laws and rules and regulations; and supervisory


                                           17
position, expectations, and authorities. FDIC risk management and compliance
examiners must satisfactorily complete a required course curriculum and a program of
on-the-job training (OJT) before they can become commissioned examiners. The FDIC
also supports its examination staff in the pursuit of professional certifications, such as
those related to BSA and anti-money laundering (AML), public accounting, fraud,
financial analysis, information systems, and bank auditing. Appendix 5 provides
additional information regarding the FDIC’s examiner training activities, including the
role of the FDIC’s Corporate University. As discussed later in this report, the FFIEC also
provides training for the FDIC and the other regulatory agencies.

Supervisory Review Process

The FDIC’s organizational structure includes six regional offices and two area offices.
Each of the area offices reports to and is part of a regional office. The regional and area
offices are each responsible for a number of field offices. As a result of this widely-
distributed workforce, the Corporation faces a constant challenge in maintaining a
consistent approach to common issues and risks. In that regard, the FDIC uses a multi-
level examination process to conduct, supervise, and review examinations that includes:

        offsite pre-examination planning and analysis;
        risk-scoping activities to focus resources on a bank’s highest risk areas;
        onsite execution of the examination; and
        ongoing communication with the financial institution management and BODs
         before, during, and after the examination.

The FDIC’s multi-level supervisory review process includes examiners-in-charge (EIC)
and supervisors in the field or regional offices and is in place to assure consistency in its
supervision and examination processes. Before being issued in final form, the
examination report undergoes a quality control review by the responsible field or regional
office to ensure the content is accurate, the findings are consistent with FDIC policies,
and the tone is appropriate given the institution’s overall condition. In certain cases, such
as when formal enforcement actions are involved, financial institutions are rated 4 or 5
(or in some cases 3), or other significant examiner concerns are identified, the review and
approval process will also involve RMS headquarters. According to FDIC officials, this
process helps to ensure that agency guidance and the supervisory treatment of financial
conditions are applied in a consistent manner.

Regional office involvement in the supervisory approach to financial institutions is
significant to the FDIC’s overall supervisory process. For example, regional office case
managers, in conjunction with regional office senior management, coordinate and direct
the RMS supervisory program using a top-down approach to develop strategies and
examination activities for all insured depository institutions.13 The primary
responsibilities of case managers include assessing risk to the Deposit Insurance Fund
(DIF) and implementing the appropriate supervisory approach to eliminate or manage

13
  According to DCP officials, their review process is very similar, with DCP review examiners performing
the same responsibilities as RMS case managers.

                                                  18
such risk. To properly assess risk, case managers must maintain an informed position on
the financial institutions for which they are responsible. To achieve that goal, case
managers review examination reports and correspondence, review press releases and
other media sources, consider offsite monitoring results, and communicate with other
regulatory agencies and financial institution officials.

Regional office involvement in the review is not limited to case managers. As indicated
below in Figure 7, the FDIC’s risk management examination review process also
involves senior regional office management and, in some cases, RMS headquarters.

Figure 7: Overview of the Risk Management Examination Review Process




Source: Government Accountability Office (GAO) -11-489, Enhanced Guidance on Commercial Real Estate
Risks Needed, May 19, 2011.
 * The numbers in the circles are composite CAMELS ratings.
 Notes: ROE is an acronym for Report of Examination.
 A problem bank memorandum documents the FDIC’s concerns with an institution and the corrective
 action in place or to be implemented. A problem financial institution is defined as any insured institution
 that has been assigned a composite rating of 4 or 5,or 3 for certain financial institutions, by its primary
 federal regulator or by the FDIC.

In addition, the review process may include consultation with the FDIC’s Legal Division.
Generally, the mission of the Legal Division is to provide the FDIC with timely,
comprehensive, and cost-effective legal services that support the Corporation’s oversight
of the safe and sound operation of insured depository institutions; compliance with
applicable civil and criminal laws and regulations, including appropriate measures in
response to violations; and its responsibilities related, but not limited, to the resolution of
financially troubled and insolvent institutions.14

For example, the Legal Division’s Enforcement Section works closely with bank and
review examiners to ensure bank compliance with banking and consumer protection laws
and regulations, and to ensure the continued safety and soundness of insured depository
institutions. In addition, where unsafe or unsound practices, violations of law, or unsafe
or unsound conditions are discovered, usually as a result of the examination of a financial
institution or a consumer complaint, appropriate action is taken to ensure correction. The

14
  DCP officials indicated that the Legal Division provides support to DCP regarding significant consumer
protection violations and needed enforcement actions.

                                                      19
Enforcement Section reviews enforcement cases provided by the regional offices to
ensure compliance with FDIC policies and substantive case law. Further, the
Enforcement Section also works with the regional offices and other bank regulatory
agencies to promote consistent enforcement policies and procedures. In particular, the
Legal Division provides assistance when (1) there is a need to determine whether there
are apparent violations of laws and regulations and (2) examiners recommend imposing a
formal enforcement action based on examination results.

Further, the FDIC’s Chief Accountant contributes to consistency in the examination and
supervision processes by participating in the development of the FDIC’s regulations and
supervisory policies; reviewing institutions’ accounting for specific transactions, when
called upon to do so; and ensuring the appropriate and consistent application of
supervisory and examination criteria related to significant economic and accounting
issues.

Supervisory Actions

Problems or concerns that may justify the need for the FDIC to consider or impose a
supervisory or enforcement action against a bank or a bank official or director may come
to the FDIC’s attention in a number of ways. The majority of the actions result from
examinations. The remaining actions result from bank employees or customers who
volunteer information concerning irregular activities in banks. Such disclosures could, in
turn, lead to FDIC visitations or an investigation. Financial information that may justify
enforcement action may also be obtained from the reports of condition and income filed
by banks on a quarterly basis.

The FDIC’s Risk Management Manual of Examination Policies (Examination Manual)
requires examiners to document their findings through a combination of brief summaries,
source documents, report comments, and other workpapers that describe examination
results, including the bank’s financial condition , its management practices, and
examination conclusions. Although examination documentation may be maintained in
various ways, examiners must securely retain appropriate supporting records of all major
examination conclusions, recommendations, and assertions detailed in the examination
report. Based on the examination results, examiners recommend appropriate corrective
action, if any, to their field and regional office officials. Especially in a bank deemed to
be a “problem bank,” or in unusual situations, examination reports are discussed with the
field office supervisor during the examination. Conversely, when an examiner identifies
problems of a relatively inconsequential nature, such as those not impacting the
soundness of the institution, the examiner will make the bank aware of the problem and
work with bank management towards a resolution. If the examiner has confidence that
the bank can and will rectify the problem, no further action may be required at that time.

If it becomes clear that informal cooperation will not be effective or identified problems
are serious, the FDIC has a wide range of both informal supervisory and formal
enforcement actions that it may use. The supervisory and enforcement options available
to the FDIC, from the least to the most severe, are as follows:



                                             20
      moral suasion and other informal means;
      examination of institutions;
      written agreements, bank board resolutions (BBR), memoranda of understanding
       (MOU), and formal agreements;
      cease and desist/consent orders and PCA directives against institutions, officials,
       or other participants;
      removal proceedings against officers, directors, or other participants;
      prohibition orders against officers, directors, or other participants;
      civil money penalties (CMP) imposed against institutions and their officials; and
      termination of deposit insurance.

Actions taken by the FDIC to address consistency in the consideration and imposition of
supervisory actions involve the use of specific guidance and the examination team’s and
field office’s coordination with regional officials, the Legal Division, and FDIC
headquarters.

The FDIC has issued specific guidance in the Formal and Informal Action Procedures
Manual (FIAP Manual) and RD memoranda to inform its examination staff as to when
and what type of informal or formal supervisory actions should be considered as a result
of an examination. In addition to complying with stated guidance, before imposing
informal or formal actions against financial institutions, examiners consult with and
discuss examination results and their concerns regarding financial institution operations,
compliance with laws and regulations, and contraventions of policy with examination
team members and their respective field and regional office supervisors. Jointly, the
examination team and regional and field office management decide whether supervisory
action is warranted, and if so, what type of action is appropriate.

Each level of FDIC supervision has certain delegated authorities. However, decisions
regarding the appropriate FDIC supervisory strategy for community banks are made in a
collaborative manner with all levels of FDIC supervision available for review and
consultation. More specifically, examiners, case managers, and FDIC regional office
supervisors consult and coordinate with regional office Legal Division representatives
and, if necessary, RMS headquarters officials regarding whether and what type of
supervisory actions should be imposed against FDIC-supervised financial institutions.

After the regional office has completed its review, certain enforcement actions, such as
prohibition and removal stipulations and notices, are forwarded under the Regional
Director’s signature (with concurrence by the Legal Division’s Regional Counsel) to the
appropriate RMS headquarters officials for review and approval. RMS headquarters
officials also review problem bank examination reports and memoranda submitted by the
regional offices and, if necessary, consent or cease and desist orders, as well as
supervisory strategies for certain FDIC-insured and/or supervised financial institutions.




                                            21
Quality Assurance Reviews and Other Tools for Monitoring Examination
Processes

The RMS Internal Control and Review Section (ICRS) helps to ensure consistency in the
Corporation’s examination and supervision processes. RMS established ICRS to
facilitate the review of the activities and the overall operational efficiency and
effectiveness of RMS. More specifically, ICRS:

      supports and enhances RMS’s ability to identify and mitigate risk by developing,
       implementing, overseeing, and coordinating internal review, audit liaison, internal
       control, and risk management programs;

      helps to ensure that RMS identifies, mitigates, and manages high-risk banking
       practices, evolving risks, challenges, and operating risks using sound internal
       control procedures;

      performs internal reviews, including regional office reviews; and

      provides expertise in internal control and risk management matters.

DCP, established in 2011, also has an internal control and review function (ICR). The
DCP Operations and Technical Systems Section’s ICR has processes, comparable to
ICRS, to promote consistency in the compliance examination process. In addition to
performing internal reviews and providing expertise in internal control and risk
management matters, ICR provides DCP senior management with a performance
overview of the regions’ systems, controls, and decision-making processes, including
feedback of the overall operations.

ICRS and ICR conduct concurrent but separate reviews of their six regional offices on a
triennial cycle. The objectives of these regional reviews are to assess management’s
systems, controls, decision-making processes, and supervisory strategies and to report
findings to senior RMS management. The general scope of the reviews includes, but is
not limited to:

      Performing limited risk-focused reviews of the regions’ supervisory actions and
       responses over time, including detailed reviews of risk management and
       compliance examination reports and CRA performance evaluations, institution
       applications, and supervisory strategies for a sample of institutions.

      Ensuring that the FDIC uses a consistent approach, across all regions, in
       examination procedures, ratings, and corrective actions required when examining
       banks for compliance with consumer protection regulations.

      Determining the regions’ timeliness and effectiveness of supervisory actions and
       communications and ensuring that the regional offices effectively monitor the
       compliance of FDIC-supervised institutions with informal and formal actions.


                                           22
        Performing risk-focused reviews of targeted areas, such as PCA, asset and/or
         liability concentrations, compliance with outstanding guidance, management’s
         communications, and implementation of new or revised guidance and programs.

        Following up on the status of recommendations made during prior regional
         reviews and other reviews/audits conducted by external and/or internal entities.

        Ensuring the region implements strategies to mitigate issues identified during self-
         assessments and challenges identified in the Regional Director’s Annual
         Assurance Statements.15

Table 5 shows which regional offices were reviewed during 2007–2011.

 Table 5: Regional Reviews, 2007-2011*
     Regional Office              2007           2008            2009           2010             2011
         Atlanta                    √                                                              √
        Chicago                                    √
         Dallas                                                    √
       Kansas City                  √                                                              √
       New York                                    √
      San Francisco                 √                                              √
  Source: FDIC ICRS.
 * According to ICRS and ICR officials, the number of regional reviews conducted may vary depending on
 available resources.


Monitoring of Informal and Formal Actions. The FDIC has a number of automated
systems that are used to record, track, and monitor supervisory actions. Those systems
include ViSION, the System of Uniform Reporting of Compliance and Community
Reinvestment Act Examinations (SOURCE), and the Formal and Informal Action
Tracking system. These systems are accessible to FDIC staff in the field, regional, and
headquarters offices and can be used to generate routine and customized reports related to
actions imposed by the FDIC and actions taken by financial institutions in response to
those actions. The systems facilitate information-sharing among examination staff and
management regarding how issues are handled from region to region and, by extension,
assist in the consistent treatment of institution risks and circumstances.

In addition, each region has an information group (Regional Office Information
Management Group) that collects data and prepares reports, including PCA reports and
watch lists for compliance and CRA, for management oversight of the examination
function. These reports are also available to headquarters for cross-region monitoring.




15
  Annually, each region will satisfy an accountability requirement by submitting a written report that
provides reasonable assurance that the region’s system of internal controls is effective.

                                                       23
Coordination with External Councils and Working Groups

The FDIC coordinates with a number of external Councils and working groups that
include the other financial regulatory agencies. Participation with these groups further
promotes consistency in the Corporation’s examination and supervision of community
banks.

Membership and Participation in FFIEC Activities. As stated previously, the FDIC is
a member of the FFIEC, which prescribes uniform principles, standards, and report forms
for the examination of financial institutions by federal and state regulatory agencies. The
FFIEC publishes handbooks, catalogs, and databases that provide uniform guidance and
information to promote a consistent examination process among the agencies. In
addition, as part of its mandate, the FFIEC provides training for federal and state
examiners. The goals of the training program are to (1) promote training efficiency by
encouraging consistency of examiner education through joint sponsorship of interagency
training; (2) develop, maintain, and deliver timely, cost-effective, and state-of-the-art
interagency training; (3) serve as a central point for training opportunities offered by the
member agencies; and (4) support the initiatives of the FFIEC and its task forces. The
FFIEC provides training in such areas as community financial institution lending, asset
management, commercial real estate, real estate appraisals, financial crimes, and
BSA/AML.

To further enhance examination consistency among the FFIEC members, including the
FDIC, the FFIEC has a number of task forces that assist in achieving its mission. More
specifically, there are six task forces to effectively administer the full spectrum of
projects in the FFIEC’s functional areas, including, but not limited to, researching future
enhancements for examiner guidance, examiner training, and reporting. Each task force
is composed of six senior officials from the five federal regulatory agencies and a
representative of the SLC. There is a separate task force for each of the following subject
matters:

      examiner education,
      supervision,
      reports,
      information sharing,
      surveillance systems, and
      consumer compliance.

Appendix 6 provides additional information regarding the FFIEC task forces.

Coordination and Membership in Other Task Forces and Working Groups. In
addition to the FFIEC, the FDIC coordinates with other agencies to promote consistency
in its supervision and examination processes. For example:

      The FDIC works with the FRB, OCC, and NCUA to address issues and programs
       that transcend the jurisdiction of each agency, such as the development of
       regulations.

                                             24
        The FDIC also works with several inter-agency groups, such as the BSA
         Advisory Group, the FFIEC BSA/AML Working Group, the National Bank Fraud
         Working Group, and the Terrorist Finance Working Group, to help combat issues
         and concerns related to compliance with the BSA, USA PATRIOT Act, and anti-
         fraud and terrorist finance groups.

Coordination with CSBS and the State Regulatory Agencies. The FDIC works
closely with state banking departments, as well as the CSBS, to promote efficiency and
uniformity in the bank examination process. The FDIC has cooperative agreements with
most states to conduct joint or alternating risk management examinations. If a state
supervisor responsible for an examination has scheduling, staffing, or other resource
constraints that may negatively impact the statutory examination frequency requirement
for a financial institution, the FDIC will work with the state supervisor to make sure that
any delinquent examination is scheduled and completed. When appropriate, the FDIC
may conduct the examination instead of the state supervisor.

Under the FDI Act, the FFIEC is responsible for issuing guidelines and establishing
standards for determining the adequacy of state examinations. The FFIEC guidelines for
relying on state examinations, issued in June 1995, stipulate that the federal banking
agencies will “accept and rely on state examination reports in all cases in which it is
determined that state examinations enable the federal banking agencies to effectively
carry out their supervisory responsibilities.” The FDIC’s acceptance of a state
examination report is based on the following criteria:

        The completeness of the state examination report.

        The adequacy of documentation maintained by state examiners to support
         observations made in examination reports.

        The ability over time of a state banking department to achieve examination
         objectives and the FDIC’s consideration of the adequacy of state budgeting,
         examiner staffing and training, and the overall review and follow-up examination
         process of a state banking department.

        Accreditation16 of a state banking department by the CSBS.

        The adequacy of any formal or informal arrangement or working agreement
         between a state banking department and the FDIC.



16
  The CSBS Accreditation Program involves a comprehensive review of the critical elements that assure
the ability of a state banking department to discharge its responsibilities through an investigation of its
administration and finances, personnel policies and practices, training programs, examination policies and
practices, supervisory procedures, and statutory powers.

                                                     25
Protocols for Questioning FDIC Examination Results
According to the FDIC, financial institutions should expect examination findings to be
fair, fact-based, and consistent with FDIC policies and procedures. Nevertheless,
institutions have multiple avenues available to question examination results when
agreement between examiners and bankers cannot be reached. These avenues include
informal channels for raising examination-related concerns directly with RMS and DCP
officials and formal channels for requesting division-level review by RMS, DCP, or
OCFI and for appealing material supervisory determinations to the SARC. Additionally,
an ALJ is available to conduct hearings related to formal enforcement actions. Bankers
may also contact the FDIC’s Central Call Center, OO, or other offices, as discussed later
in this report.

Based on our review of the formal processes, the frequency of division-level reviews and
SARC appeals by FDIC-supervised institutions is low, and it is rare that these reviews
and appeals result in overturning a material supervisory determination. Additionally, we
noted that two-thirds of the reviews and appeals submitted during 2007-2011 exceeded
self-imposed FDIC timeframes.

The FDIC informed institutions of the various channels available for resolving
examination concerns in FIL-13-2011, Reminder on FDIC Examination Findings, issued
in March 2011, as follows:

       The FDIC encourages financial institutions to provide feedback on FDIC
       examinations, Reports of Examination, and other supervisory processes. An open
       dialog with bank management is critical to ensuring the supervisory process is
       effective in promoting an institution’s strong financial condition and safe-and-
       sound operation. If an institution disagrees with examination findings, it should
       address those concerns through communication with the examiner, field office
       management, or the appropriate regional office staff. Division-level informal
       reviews are also available. If informal efforts to resolve disagreements are not
       successful, an institution may pursue a formal supervisory appeal.

Additionally, the FIL states:

       Institutions with concerns about examination findings, assigned ratings, or other
       supervisory determinations reached by the FDIC often find that the most effective
       method for understanding the FDIC’s conclusions is to discuss the matter with the
       EIC or contact the appropriate field or regional office. Banks can informally
       contact FDIC offices by telephone or email, or request a meeting in-person.
       Institutions also can express concerns as part of their examination response letter
       or other correspondence. If an institution is unable to resolve its concerns with
       the regional office or believes that its regional office is not carrying out FDIC
       policies in the manner intended by the Chairman or Division management, it is
       encouraged to contact the appropriate Division Director for an informal review.



                                           26
The FIL provides contact information for the RMS and DCP Division Directors, as well
as contact information for the FDIC’s OO and the six regional office ombudsmen.
According to RMS regional office management, institutions frequently communicate
with examiners and field and regional office officials, resulting in a constructive and
robust examination and supervisory process.

Informal Protocols
Informal discussions generally take place prior to the issuance of a final examination
report but may occur at any time. These discussions may involve various levels and
processes within RMS17 and include members of the examination team, field office staff,
regional office staff, and a Post-Examination Survey.

FDIC examiners engage in ongoing dialogue with bank officials during examinations to
discuss preliminary findings and provide management with an opportunity to respond, so
that all perspectives are appropriately considered. At the bank’s discretion, concerns
about examination findings can be raised to the field office supervisor or the regional
office, including the regional directors and deputy regional directors, as these individuals
are actively involved in working with institutions as significant matters arise.

The sections below provide an overview of the opportunities available for bankers to
raise concerns and facilitate dialogue on potential disagreements during and outside of
the examination process.

Before and During the Onsite Examination

The Examination Manual identifies ongoing communication between the examination
staff and bank management as a critical element of effective bank supervision. During
pre-examination planning, the FDIC notifies bank management of the examination start
date for onsite fieldwork and sends an information request to obtain data on the bank’s
loan portfolio and other activities. The EIC also schedules a pre-examination contact
with bank management to identify economic conditions impacting the bank’s financial
condition, operational and functional changes, and what senior bank management
considers to be the highest risk areas.

Informal meetings are held as needed throughout the examination to discuss various
topics and to gain management’s perspective on local economic conditions and bank-
specific issues. The Examination Manual indicates that all major examination issues
should be discussed with senior management as soon as practical during an examination.
The Examination Manual also instructs examiners to encourage the institution’s board
members to attend any or all meetings conducted during the examination to improve


17
  Since the functions of RMS and DCP were combined in one division until February 2011, we confirmed
with DCP management that its compliance/CRA examination processes were consistent with the processes
followed by RMS. At the regional and field office levels, both RMS and DCP staff continue to report to
the same regional directors.



                                                  27
communication with board members and increase their knowledge of the examination
process.

Exit Meeting with Management

The last step of the onsite phase of the examination is an exit meeting with management.
According to the Examination Manual, examiners should thoroughly discuss their
findings and recommendations with senior bank management prior to the conclusion of
the examination. Exit meetings should fully apprise bank management of all deficiencies
and recommendations that will be cited in the examination report. Such meetings are
critical in communicating examination findings to the bank and providing management
an opportunity to respond.

Following the Onsite Examination

While RMS supervisory review of the draft examination report is in process, there may
be further discussions with bank management or the bank’s BOD, especially if the
examination findings warrant some level of supervisory or enforcement action. During
this time, bank management is welcome to discuss any continuing concerns with field
and/or regional office management.

Meetings with Directors. Examination results are usually presented at a meeting of the
bank’s BOD or a BOD committee. According to the Examination Manual, the FDIC’s
policies for meetings with BODs are designed to encourage director involvement in, and
enhance director awareness of, FDIC supervisory efforts and to increase the effectiveness
of such efforts.

After issuance of the final examination report, each BOD member is expected to read the
report in its entirety and sign a signature page in the report, acknowledging that they have
personally reviewed the contents of the report. The BOD review should be recorded in
the board minutes, and the signed report should be maintained in the bank’s records. All
report contents and ratings are confidential.

Post-Examination Survey. To assist RMS and DCP in improving the quality and
efficiency of their examination processes, the FDIC asks each institution at the end of an
examination to complete a Post-Examination Survey. This survey allows the bank to
provide feedback on the examination process. The survey is Web-based, and an access
code is provided with the final examination report. The individual results of the survey
are confidential. The FDIC’s DIR prepares a report providing the aggregated responses
received each calendar quarter.

The survey covers five general areas:

      pre-examination process results and timeframes;
      examiners’ communications, expertise, and responsiveness;
      examination process results and timeframes;
      examination report clarity, accuracy, and usefulness; and


                                            28
        overall benefits and fairness of the examination.

In addition, an FDIC headquarters official will contact the banker if requested on the
survey form. In 2011, 22 bankers requested a contact, but RMS and DCP officials
indicated that no issues were raised of a material concern.

DIR’s desired response rate for the Post-Examination Survey is 70 percent. However, for
the period covered by our audit, the highest response rate was 45 percent for the third
quarter of 2007 and the lowest response rate was 28 percent for the third quarter of 2010.
Each RMS regional office receives the quarterly aggregate results and is expected to take
action to address any issues that arise from the survey.

Formal Protocols for Appealing Material Supervisory
Determinations
After issuance of the final examination report, institutions can pursue their concerns
through the formal review and appeals processes. Section 309(a) of the Riegle
Community Development and Regulatory Improvement Act of 1994 (Riegle Act)
required the FDIC and the other federal banking agencies to:

        establish an independent intra-agency appellate process to review material
         supervisory determinations,

        ensure that an appeal of a material supervisory determination by an insured
         depository institution is heard and decided expeditiously, and

        ensure that appropriate safeguards exist for protecting appellants from retaliation
         by agency examiners.

The Riegle Act defines the term “independent appellate process” as a review by an
agency official who does not directly or indirectly report to the agency official who made
the material supervisory determination under review. The FDIC adopted its original
Guidelines for Appeals of Material Supervisory Determinations18 (Guidelines for
Appeals) in 1995 to establish operational procedures for a division-level review process
and an independent SARC appeals process.

Definition of Material Supervisory Determinations

The term “material supervisory determinations” was defined in the Riegle Act to include
determinations relating to:

        examination ratings,
        the adequacy of loan loss reserve provisions, and

18
 For additional information regarding the FDIC’s Guidelines for Appeals of Material Supervisory
Determinations refer to http://www.fdic.gov/regulations/laws/sarc/. This link also includes information on
SARC decisions.

                                                    29
      classifications on loans that are significant to an institution.

The Riegle Act specifically excluded from the definition any decisions to:

      appoint a conservator or receiver for an insured depository institution, or
      take PCA pursuant to section 38 of the FDI Act.

Finally, the Riegle Act expressly provided that the requirement to establish an appeals
process should not affect the authority of the agencies to take enforcement or supervisory
actions against an institution. The Financial Institutions Reform, Recovery, and
Enforcement Act of 1989 (FIRREA) had previously established a separate process for the
legal review of administrative enforcement proceedings (see the section entitled,
Administrative Law Judge Process, later in this report).

In March 1995, the FDIC’s BOD adopted the Guidelines for Appeals. In addition to the
statutory exclusions noted above, the Guidelines for Appeals excluded from the definition
of material supervisory determinations:

      determinations for which other appeals procedures exist (such as determinations
       relating to deposit insurance assessment risk classifications),
      decisions to initiate formal enforcement actions under section 8 of the FDI Act,
      decisions to initiate informal corrective actions (such as BBRs or MOUs),
      determinations relating to a violation of a statute or regulation, and
      any other determinations not specified in the Riegle Act as being eligible for
       appeal.

The Guidelines for Appeals were modified in later years as follows:

      in 2004, to change the composition and procedures of the SARC;
      in 2008, to eliminate appeals of the determinations underlying enforcement
       actions;
      in 2010, to extend the deadlines for divisions to respond to requests for review
       and the time available to the SARC for reviewing and notifying the institution in
       writing of its decision; and
      in 2012, to reflect various legislative and organizational changes.

The FDIC distributed the revised Guidelines for Appeals to all FDIC-supervised financial
institutions through FILs.

Requests for Review

Among other changes, the Guidelines for Appeals were revised in 2012 to reflect FDIC
organizational changes that became effective in February 2011, recognizing that matters
subject to appeal could pertain to RMS, DCP, or OCFI. FDIC-supervised institutions
must request a review of material supervisory determinations through RMS, DCP, or
OCFI before an appeal is made to the SARC.


                                              30
Under the Guidelines for Appeals, an institution may file a request for review of a
material supervisory determination with the division or office that made the
determination within 60 calendar days following the institution’s receipt of an
examination report containing a material supervisory determination or other written
communication of a material supervisory determination. Institutions are encouraged to
attempt to resolve the dispute with the FDIC examiner or applicable regional/area office
before filing a request for review with the appropriate director.

A request for review must be in writing and include:

         a detailed description of the issues in dispute,
         how resolution of the dispute would materially affect the institution,
         whether a good-faith effort was made to resolve the dispute with the onsite
          examiner and the regional office, and
         a statement that the institution’s BOD has considered the merits of the request and
          has authorized that it be filed.

The Guidelines for Appeals call for the division or office director to issue a written
determination on the request for review, setting forth the grounds for that determination,
within 45 days of receipt of the request.19 No appeal to the SARC is allowed unless an
institution has first filed a timely request for review with the appropriate division or
office director.

Frequency and Results of Requests for Review. For the 5-year period ended
December 31, 2011, FDIC-supervised institutions submitted 41 requests for review of
material supervisory determinations. Of that total, 23 requests were related to risk
management examinations and 18 were related to compliance/CRA examinations.
Table 6 shows the frequency of these requests from 2007 to 2011.

 Table 6: Frequency and Types of Requests for Review, 2007-2011
     Year        Risk Management               Compliance/CRA                       Totals
      2007                  1                           7                               8
      2008                  4                           3                               7
      2009                  3                           2                               5
      2010                  7                           4                              11
      2011                  8                           2                              10
     Totals                23                           18                             41
 Source: RMS Risk Management Examinations Branch. RMS provided information on all division-
 level appeals submitted by FDIC-supervised institutions during 2007-2011, including any that would
 have been applicable to DCP or OCFI in 2011.




19
  In April 2010, the timeframe for the appropriate director to issue a decision following a filing of a request
for review was extended from 30 days to 45 days. There are no specific timeframes established by law.

                                                      31
Of the 41 requests, 28 were completed as follows: 24 were denied, 3 risk management
requests were partially sustained, and 1 compliance/CRA request was sustained. The
remaining 13 requests were not completed for the following reasons:

      8 requests were found to be not appealable under the Guidelines for Appeals,
      4 requests were withdrawn by the institution, and
      1 institution was closed.

According to FDIC officials, most requests are denied because the applicable division
director usually finds that the material supervisory determinations were consistent with
FDIC policy.

Additionally, regarding the timeframes for processing the 28 completed requests, 20 of
these requests were processed under the original 30-day timeframe, and 8 of these
requests were processed under the revised 45-day timeframe established in April 2010.
Of the 20 requests processed under the original timeframe, 18 requests exceeded the
timeframe, of which 12 exceeded the timeframe by up to 61 days and 6 exceeded the
timeframe by 90 to 383 days. Of the 8 requests processed under the revised timeframe,
1 request exceeded the timeframe by 4 days.

Appeals to the Supervision Appeals Review Committee

Within the FDIC, the SARC provides the independent intra-agency appellate process for
reviewing material supervisory determinations, as required by the Riegle Act. SARC
membership consists of three voting members:

      one inside FDIC Board member, designated by the FDIC Chairperson, who serves
       as the Chairperson of the SARC; and

      one deputy or special assistant to each of the inside FDIC Board members who
       are not designated as the SARC Chairperson.

The FDIC General Counsel is a non-voting member of the SARC. If there are vacancies,
the FDIC Chairperson may designate alternate members, provided that they were not
involved in making or affirming the material supervisory determination under review.

An institution that does not agree with the written determination rendered by the division
or office director must appeal that determination to the SARC within 30 calendar days
from the date of that determination. An appeal may be dismissed by the SARC if it is not
filed in a timely manner, if the basis for the appeal is not discernable from the appeal, or
if the institution moves to withdraw the appeal.

From 2004 to 2010, the Guidelines for Appeals required the SARC to review an appeal
and notify the institution in writing of its decision “within 60 days from the date the
appeal is filed, or within 60 days from oral presentation, if held.” In April 2010, the
guidelines were changed to require that a SARC meeting be held within 90 days from the


                                             32
date of the filing of the appeal, and for the SARC to issue a written decision within
45 days from the date the SARC meets to consider the appeal.

Frequency and Results of SARC-Level Appeals. Of the 41 division-level requests for
review of material supervisory determinations submitted by FDIC-supervised institutions
during the 5-year period covered by this audit, 23 were further appealed to the SARC. Of
these 23 SARC appeals, 9 were related to risk management examinations and 14 were
related to compliance/CRA examinations. Table 7 shows the frequency and types of
SARC appeals from 2007 to 2011.

 Table 7: Frequency and Types of SARC-Level Appeals, 2007-2011
   Year         Risk Management           Compliance/CRA      Totals
   2007                1                         4               5
   2008                0                         2               2
   2009                2                         3               5
   2010                4                         3               7
   2011                2                         2               4
  Totals               9                        14              23
 Source: FDIC Legal Division, Executive Secretary Section.


Of the 23 appeals, 11 were completed as follows: 4 risk management appeals and 6
compliance/CRA appeals were denied and 1 compliance/CRA appeal was partially
sustained. The remaining 12 appeals were not completed for the following reasons:

       9 appeals were found to be not appealable under the Guidelines for Appeals,
       2 institutions were closed, and
       1 institution withdrew its appeal.

In reviewing the SARC determinations for appeals that were denied, we noted that the
appeals related to risk management examinations were generally denied because the
SARC found that component and composite ratings were fully supported, loan
classification decisions were well-founded, growth limitations were properly imposed,
and interest rate restrictions were correct. With respect to compliance/CRA
examinations, the SARC found that compliance ratings were well-founded and consistent
with regulatory requirements, there was a reasonable basis for citing violations, and the
bank’s CRA performance was appropriately evaluated. These determinations provide
evidence that the SARC is considering the underlying merits of both the institution and
the examiners’ positions and, as such, is considering the substance of the disagreement
and not simply whether or not the examiners followed established policy.

Regarding the timeframes for processing the 11 completed SARC appeals, 8 appeals
were filed before the April 2010 timeframe revisions and 3 appeals were filed
afterwards. Of the 8 appeals, 7 exceeded the 60-day decisional deadline after the oral
hearing, with 3 appeals exceeding the deadline by 2 to 37 days and 4 appeals exceeding
the deadline by 71 to 128 days. The 3 appeals filed after the April 2010 timeframe
revisions were all completed by the SARC within the 135-day combined timeframe
allowed by the April 2010 revisions.


                                                   33
Regarding the requests for review and SARC appeals that exceeded the applicable
timeframes in 2007-2009, RMS officials stated that these instances were largely due to
the workload associated with the financial crisis and related CAMELS rating changes.
Since the timeframe changes were implemented in April 2010, the FDIC has
satisfactorily met the new timeframes with one minor exception and no further
adjustments to the timeframes are expected.

Other Avenues for Questioning Examination Results
In addition to the informal and formal appeals processes, FDIC-supervised institutions
have other avenues for questioning examination results, including the ALJ, the OO, and
other components of the FDIC.

Administrative Law Judge Process

FIRREA directed the federal banking agencies to “establish their own pool of
administrative law judges” to conduct hearings related to formal enforcement actions. In
1991, OFIA was created as the executive body responsible for processing administrative
enforcement proceedings brought by the FDIC, OCC, FRB, or NCUA.20 After an agency
initiates a public administrative proceeding, it refers the case to OFIA. The OFIA ALJ
then conducts public hearings at locations throughout the United States in a manner
similar to non-jury trials in the federal district courts. The ALJ prepares a recommended
decision to the Board or Comptroller of the appropriate federal banking agency, with
factual findings and legal conclusions that are matters of public record. The parties may
file exceptions to the recommended decision with the Board or Comptroller of the
appropriate federal banking agency, which can affirm, reverse, modify, set aside, or
remand the matter for further proceedings. Any appeals of a final federal banking agency
action are made to a United States Circuit Court of Appeals.

Table 8 shows the number and status of FDIC enforcement action cases that were
referred to OFIA in 2007-2011.




20
  OFIA also adjudicated cases brought by the Office of Thrift Supervision before it was abolished in July
2011.

                                                    34
 Table 8: FDIC Enforcement Action Cases Referred to OFIA, 2007-2011
                      Status                             2007     2008    2009    2010    2011
 Settled Before Hearing                                             1      11      10      11
 Pending Hearing                                                                            4
 Hearing Held:
  - Upheld FDIC Decision on the Merits                     1        1        1
  - Defaulted to FDIC Decision                                      1                1
    (respondent did not appear)
  - Terminated by ALJ*                                                               1*
  - Decision Pending                                                                 1      2
 Total Cases                                               1        3      12       13     17
 Source: FDIC Legal Division, Supervision Branch.
 * ALJs may terminate cases involving CMPs in which the respondent fails to respond, as
 happened in this case. As a result, the FDIC proceeded with the CMP.

As indicated in Table 8, most FDIC enforcement action cases referred to OFIA were
settled with the institution before a hearing took place, while cases with ALJ hearings
have generally been resolved in the FDIC’s favor. There are also three cases from 2010-
2011 for which the ALJ’s decision is pending.

Office of the Ombudsman

Within the FDIC, the OO serves as an independent, neutral, and confidential resource and
liaison for the banking industry and the general public. However, the OO is not an
appeals function. The OO is organizationally separate from other FDIC divisions and
offices, enabling the Office to operate free from the influence, control, or guidance of the
FDIC program areas.

The OO instructs its staff to respond to inquiries about the FDIC in a fair, impartial, and
timely manner. The office researches questions and considers complaints from bankers
and bank customers. Contact with the OO does not prevent an inquirer from pursuing
formal resolution channels within the FDIC, nor does it constitute initiation of a formal
complaint, grievance, or appeal process, or forestall the time limits for pursuing formal
resolutions that are established within those formal processes.

The OO serves as a neutral advocate for fair processes. In that role, OO staff assists in
identifying options to resolve disputes, but does not take sides with respect to the
outcome. The office’s ability to compile information, negotiate effective resolutions, and
provide options is dependent upon its status as a neutral and independent entity.

The OO also has regional ombudsmen in place in all six FDIC regional offices. The
regional office ombudsmen are responsible for an outreach program that seeks to make
contact with all FDIC-supervised institutions. Table 9 presents the frequency with which
bankers expressed concerns about various types of FDIC examinations during outreach
meetings in 2007-2011.




                                                   35
 Table 9: Examination Concerns Noted During Outreach Meetings, 2007-2011
                Area of Concern                   2007   2008   2009   2010     2011
 Risk Management                                    36    48     21     30       71
 Compliance                                          3     2      2     10       17
 Community Reinvestment Act                          3     1      0       0        3
 Specialty Examinations                             10     1      0       2        1
 General Examination Process                       145    86     30     48        67
  Total Instances                                  197   138     53      90     159
 Source: FDIC OO.


In addition, OO representatives are present at all bank closings to provide accurate
information to bank customers, the media, bank employees, and the general public.

The OO prepares a quarterly report for the FDIC’s divisions and offices summarizing
topics and issues raised through the OO’s various outreach activities and contacts from
the public and banking industry. The OO’s fourth quarter 2011 report indicated that
common concerns or complaints from bankers included:

      frustration regarding the focus of examinations,
      varying interpretations of regulations by examiners, and
      apprehension about consumer regulations resulting from the Dodd-Frank Act.

Many of the OO’s contacts originate from its toll-free number. In addition, the OO
receives some calls through the FDIC Central Call Center in Arlington, Virginia. The
Call Center is one of many FDIC resources available to the banking community for
general questions. Other resources include field supervisors and examiners, RMS case
managers and DCP review examiners, and other supervisory personnel at the regional or
headquarters offices. Based on the information it receives from various sources, the OO
may suggest ways to improve FDIC operations, regulations, and customer service;
however, because of its confidentiality mandate, the OO is unable to provide specific
information regarding which banks have expressed concerns.

Table 10 summarizes the frequency of contacts and several of the major issue areas noted
by OO staff for the period 2007-2011.




                                            36
 Table 10: Summary of OO Contacts by Major Issue Areas, 2007-2011
             Issue Area                2007         2008        2009        2010        2011
 Bank Examinations
  - Risk Management/Specialty                 22           17          24          27          28
  - Compliance/CRA                             8            8           7          22          19
  - General Examination Process               21           12          11           4           9
 Working Relationships and                     5            8           8          21          22
  Communication
 Material Supervisory                          4            5           4           5           3
  Determinations
 Appraisals                                20           16           4           7           21
 Other Regulatory Matters                 506          412         187         289          274
  Total for Issue Areas Above             586          478         245         375          376
  Other Contacts                          317          414         362         513          453
  Total Contacts                          903          892         607         888          829
 Source: FDIC OO and the Ombudsman Automated Tracking System (OATS).


Other Points of Contact

The FDIC Office of Legislative Affairs (OLA) receives inquiries and requests from the
Congress related to community banks, including requests forwarded from banks or bank
associations. OLA works with appropriate division and office personnel to respond fully
and promptly to these inquiries and requests. Additionally, bankers may sometimes
directly contact the RMS or DCP Directors or the Office of the Chairman to discuss
various issues and concerns.


FDIC Initiatives Related to Community Banks
While not directly related to our audit objectives, we considered it important to discuss
various initiatives undertaken by the FDIC to further its dialogue and efforts to better
understand the challenges and opportunities facing community banks. Recognizing that
community banks play a crucial role in the nation’s financial system and economy, the
FDIC Acting Chairman views the FDIC as having a responsibility to use its resources to
gain a better understanding of the challenges facing community banks and to share that
understanding with the banks as well as the general public.

FDIC Advisory Committee on Community Banking
In May 2009, the FDIC BOD approved the establishment of the FDIC Advisory
Committee on Community Banking, which provides the FDIC with advice and
recommendations on a broad range of policy issues impacting small community banks
throughout the country. The Committee reviews various matters that include the latest
examination policies and procedures, lending practices, and regulatory compliance issues,
as well as any obstacles to the continued growth and ability of community banks to
extend financial services in their local markets in the current environment.



                                               37
The majority of the members of the Committee represent community banks of various
sizes and charter types, including a cross-section of institutions from different regions of
the country. Other members of the Committee may include representatives of the public
sector, small businesses, non-for-profit community organizations, or other entities that
rely on community banks to provide credit and other banking services in their
communities, as well as one or more representatives from academic institutions.

Other Initiatives
The Acting Chairman has taken additional steps to ensure that the FDIC and others
significant to the financial industry identify and discuss important community
banking-related issues and take action to address those issues. These steps include:

      dialogues with community bankers and the stakeholders of community banks,
      a Future of Community Banking conference held at the FDIC in early 2012,
      research projects focused on community banks and their local economies,
      streamlined supervision and rulemaking processes, and
      the collection of information regarding the obstacles that financial institutions
       face in making loans available to creditworthy borrowers.

In consideration of recent and forthcoming regulatory changes, the FDIC is also
developing guidance for its examiners that considers the needs of community banks to
help them understand and appropriately implement new and revised rules and regulations.

To reinforce the importance of these community banking initiatives, the 2012 FDIC
Performance Goals include a specific goal to “Deepen the FDIC’s Understanding of the
Future of Community Banking.” As a performance goal, the results of the FDIC’s
community banking initiatives will be measured and tracked to assess the Corporation’s
accomplishments.


Corporation Comments and OIG Evaluation
Subsequent to the issuance of our draft report, FDIC officials provided additional
information for our consideration, and we revised our report to reflect this information, as
appropriate. On August 29, 2012, the RMS Director provided a written response to a
draft of this report on behalf of the Corporation. That response is provided in its entirety
in Appendix 9.

In the response, the RMS Director noted the thoroughness of the draft report and
concurred with our observations about increased examination cycle and report processing
timeframes. The Director also acknowledged the information in the report regarding
quality control practices that promote consistency in the examination process and
encourage examiners and bankers to informally resolve disputes during examinations.
Concerning our observations on the formal dispute resolution process, the Director
confirmed that changes to the decisional deadlines have enabled formal reviews and
appeals to be processed within applicable timeframes.

                                             38
                                                                             Appendix 1

              Objectives, Scope, and Methodology
Objectives

Our audit objectives were to report on:

          the FDIC’s examination process for small community banks, including
           examination timelines and how the FDIC ensures consistency in the
           administration of examinations across the country; and

          the ability of FDIC-supervised institutions to question examination results,
           such as through the OO, the appeals process, or informal channels, and the
           frequency and success of such appeals.

We conducted this performance audit from March 2012 to August 2012 in accordance
with generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives.
Consistent with our audit objectives, we did not conduct tests to conclude on (1) the
adequacy or effectiveness of the FDIC’s examination or appeals processes, (2) actions
taken by the FDIC to address any prior self-identified deficiencies in its examination and
appeals processes, or (3) matters included in prior audit reports. Although our audit
objectives did not require us to develop findings and conclusions, we believe that the
evidence obtained provides a reasonable basis for our observations in this report.

Scope and Methodology

The scope of our review, 2007-2011, was selected to take into account examination
timeframes and appeals processes both before and during the financial crisis. Our
methodology included data-gathering techniques to obtain an understanding of the
FDIC’s overall examination and supervision activities and the ability of FDIC-supervised
financial institutions to question examination results.

To achieve the objectives, we performed the following procedures and techniques:

          Interviewed and obtained specific statistical information from RMS, DCP,
           Legal Division, and OO headquarters officials.

          Interviewed RMS officials in the Atlanta, Chicago, and Dallas Regional
           Offices, and the OFIA ALJ.

          Interviewed a Legal Division official from the Atlanta Regional Office.




                                            39
                                                                             Appendix 1

             Objectives, Scope, and Methodology
In addition, we reviewed:

          examination manuals such as the Risk Management Manual of Examination
           Policies, Compliance Examination Manual, Case Manager Procedures
           Manual, and Formal and Informal Action Procedures Manual;

          information regarding the benchmarks and actual hours spent on examinations
           and the average turnaround days for RMS and DCP examinations, including
           the number of days spent onsite, for report processing, and the total
           examination cycle (i.e., combined onsite and report processing time);

          information from the FDIC’s Web site related to controls that the Corporation
           has implemented to address examination and supervision consistency,
           including applicable laws and rules and regulations, policies, procedures,
           examiner and financial institution guidance, examiner training activities,
           supervisory review, supervisory and enforcement actions, and quality
           assurance activities;

          information related to the FDIC’s policies, procedures, and processes for
           financial institutions to informally and formally question examination results;

          FDIC participation in, and coordination with, external councils, including the
           FFIEC and other working groups;

          statistical data on the number, days, and resolution of appeals filed by FDIC-
           supervised financial institutions;

          numerical data on the number of contacts with bankers and the public handled
           by the OO; and

          information on the FDIC’s initiatives related to community banks.


Internal Control, Reliance on Computer-processed Information,
Performance Measurement, and Compliance with Laws and Regulations

We gathered information regarding the FDIC’s internal control framework for risk
management and compliance/CRA examinations. However, consistent with the stated
audit objectives, we did not assess the FDIC’s overall internal control or management
control structure. We obtained data maintained by the RMS Business Analysis and
Decision Support Section on examination timeframes, which was largely drawn from




                                            40
                                                                                         Appendix 1

                Objectives, Scope, and Methodology
ViSION,21 and we also obtained data maintained by the OO in OATS on contacts with
bankers and the public. However, we did not assess the effectiveness of information
system controls as this was not part of our audit objectives. We also obtained informal
data maintained by RMS and the Legal Division pertaining to appeals and ALJ cases, and
we verified the data against the available hardcopy files provided to us on appeals.

The Government Performance and Results Act of 1993 (the Results Act) directs
Executive Branch agencies to develop a customer-focused strategic plan, align agency
programs and activities with concrete missions and goals, and prepare and report on
annual performance plans. For this audit, we reviewed the FDIC Strategic Plan 2008-
2013, 2011 Annual Performance Plan, and 2012 Annual Performance Plan. We also
reviewed RMS’s 2010 Performance Results. We did not assess the strengths and
weaknesses of the FDIC’s strategic and annual plans or the Corporation’s mission and
goals in meeting the requirements of the Results Act because such an assessment was not
part of the audit objectives.

Regarding compliance with laws and regulations, we did not perform tests to determine
whether the FDIC had complied with provisions of the FDI Act, the Riegle Act, the
Dodd-Frank Act, or the FDIC Rules and Regulations as such an assessment was not
necessary to achieve the audit objectives. Additionally, we did not specifically assess the
risk of fraud and abuse related to our objectives. However, during the audit, we were
alert to the possibility of fraud and illegal acts, and no instances came to our attention.




21
  See the FDIC OIG’s audit report, Reliability of Supervisory Information Accessed Through the Virtual
Supervisory Information on the Net (ViSION) System (AUD-08-019, dated September 25, 2008), for
recommendations made to enhance the accuracy of data in ViSION.


                                                   41
                                                                                             Appendix 2

                  The FDIC’s Examination Processes
Risk Management Examination Process

RMS conducts risk management examinations to ensure that the institutions it supervises
are operating in a safe and sound manner and are complying with banking laws and
regulations in the provision of financial services.22 Section 10(d) of the Federal Deposit
Insurance Act (the FDI Act) requires periodic, full-scope, onsite examinations of each
insured depository institution. These examinations serve to evaluate an institution’s
overall risk exposure and its ability to identify and manage those risks.23

On October 1, 1997, the FDIC, in conjunction with the FRB and Conference of State
Bank Supervisors, began implementing a risk-focused examination process designed to
focus their examinations on bank functions that posed the greatest risk exposure. The
risk-focused examination process attempts to assess an institution’s risk by evaluating its
processes to identify, measure, monitor, and control risk. If management controls are
properly designed and effectively applied, they should help ensure that satisfactory
performance is achieved. In a rapidly changing environment, a bank’s condition at any
given point in time may not be indicative of its future performance. The risk-focused
examination process seeks to strike an appropriate balance between evaluating the
condition of an institution at a certain point in time and evaluating the soundness of the
institution’s processes for managing risk.

The examination process can be separated into three distinct phases: pre-examination
planning, onsite fieldwork, and development and review of the examination report. A
brief description of these phases follows.24

Pre-Examination Planning. According to the FDIC’s Examination Manual, thorough
pre-examination planning is critical to the efficient completion of an examination. Pre-
examination planning helps support decisions on the work to be performed and areas to
receive special attention. Such planning also helps determine staffing needs regarding
the size and expertise of the examination team. To guide its examiners in conducting pre-
examination planning, the FDIC has an ED Module entitled, Risk Scoping Activities,
which was developed in conjunction with the FRB and state banking departments. This
ED Module identifies several activities to be completed during pre-examination planning,
including:

        reviewing various information sources to identify the significant and higher-risk
         activities of the bank;


22
   The FDIC may also conduct examinations of state member banks and federally-chartered banks and
thrifts, when needed for insurance purposes.
23
   As noted in the body of the report, examiners also rely on off-site monitoring to identify emerging risks
and establish supervisory strategies to mitigate them.
24
   Refer to http://www.fdic.gov/regulations/examinations/index.html to learn more about how the FDIC
examines financial institutions.


                                                     42
                                                                              Appendix 2

               The FDIC’s Examination Processes
      scheduling a pre-examination contact with bank management to discuss economic
       conditions, operational changes, and the highest-risk areas;

      reviewing the findings of internal and external auditors;

      determining the perceived control risks within the bank based on specific internal
       control weaknesses identified by audits, the prior examination, or other control
       procedures; and

      reviewing information regarding consumer complaints or problems and
       determining the potential for safety and soundness concerns.

Pre-examination planning culminates in the preparation of a scope memorandum, also
called a pre-examination planning memo. According to the ED Module, the scope
memorandum should be tailored to the size and complexity of the bank and define the
objectives of the examination.

Onsite Fieldwork. Under the risk-focused examination process, FDIC examiners focus
less on specific transactions and more on an institution’s control processes. Specifically,
this examination approach includes:

      more focus on BOD and management oversight;

      less transaction testing, with a focus on areas identified during pre-examination
       planning as having the most risk;

      a reduced percentage of loans and files reviewed; and

      fewer procedures, such as balancing accounts.

The start of onsite fieldwork is tracked as the Examination Start Date. This date indicates
when the examination commenced, which is the date the examination team begins its
formal onsite examination of the institution. The Examination Start Date is used to
monitor report completion timeframes and compliance with examination frequency
requirements.

Development and Review of the Examination Report. The onsite phase of the
examination typically concludes with an exit meeting with management and the
examination team’s completion of the draft examination report. This date is tracked as
the Date Examination Completed, which is the date on which the EIC submits the draft
report for RMS supervisory review. The Date Examination Completed is used to monitor
report processing timeframes.




                                            43
                                                                                Appendix 2

                The FDIC’s Examination Processes
Depending on the asset size of the bank and its overall CAMELS rating, the draft report
will be reviewed by RMS senior officials at the field office and/or regional office before
it is issued to the institution as a final report. The final report issuance date is tracked as
Date Mailed, which is when the report is mailed to the bank along with a transmittal letter
and post-examination survey.

Compliance Examination Process

DCP conducts compliance examinations to:

      assess the quality of an FDIC-supervised institution’s compliance management
       system for implementing federal consumer protection statutes and regulations;

      review compliance with relevant laws and regulations; and

      initiate supervisory action when elements of an institution’s compliance
       management system are deficient or when significant violations of law are found.

Institutions supervised by the FDIC are examined at intervals established by policy
approved by the FDIC’s Board of Directors. Depending on a combination of their
compliance and CRA ratings, DCP conducts compliance examinations of these
institutions in cycles ranging from 12 to 36 months. However, as mandated by the
Gramm-Leach-Bliley Act of 1999, CRA performance evaluations for institutions with
total assets of $250 million or less can be conducted no more often than every 5 years for
institutions rated “Outstanding” and no more often than every 4 years for institutions
rated “Satisfactory.” As a result, CRA performance evaluations for these smaller
institutions are usually paired with alternating compliance examinations, while CRA
performance evaluations for all other institutions are usually conducted concurrently with
each compliance examination. Also, the rating systems for compliance and CRA
examinations differ, as follows:

      compliance examinations provide a rating from 1 to 5, with 1 indicating a strong
       compliance position and 5 indicating an institution in need of the strongest
       supervisory attention; while

      CRA performance evaluations provide ratings of Outstanding, Satisfactory, Needs
       to Improve, or Substantial Noncompliance, reflecting the institution’s record of
       helping to meet the credit needs of its assessment area.

DCP’s compliance examinations blend risk-focused and process-oriented approaches.
Risk-focusing involves using information gathered about a financial institution to direct
FDIC examiner resources to those operational areas that present the greatest compliance
risks. Concentrating on the institution’s internal control infrastructure and methods,
which is the process used to ensure compliance with federal consumer protection laws


                                              44
                                                                              Appendix 2

               The FDIC’s Examination Processes
and regulations, acknowledges that the ultimate responsibility for compliance rests with
the institution and encourages examination efficiency.

Risk-focusing involves:

      developing a compliance risk profile for an institution using various sources of
       information about its business lines, organizational structure, operations, and past
       supervisory performance;

      assessing the quality of an institution’s compliance management system in light of
       the risks associated with the level and complexity of its business operations and
       product and service offerings; and

      testing selected transactions based on risk, such as when an operational area is
       determined to be high-risk and the institution’s compliance management efforts
       appear weak.

Compliance examinations primarily involve three stages: pre-examination planning;
review and analysis, both offsite and onsite; and communicating findings to institution
management through meetings and an examination report. Although compliance and risk
management examinations each have a different focus, the process for conducting
compliance examinations follows the same general phases identified above for risk
management examinations, except that the offsite review and analysis is considered part
of the second phase. For ease of understanding, we have broken this phase into two parts
below. DCP management confirmed that these compliance examination processes have
been consistent for the 5-year scope of our review. The OIG plans to begin audit
coverage of DCP’s operations in 2013.

Pre-Examination Planning. Pre-examination planning involves gathering information
available in FDIC records and databases, contacting the financial institution to review and
narrow the draft request for information and documents, and delivering a letter to the
institution requesting specific information and documents for detailed analysis by the
examination team.

Review and Analysis – Offsite. During the review and analysis phase of a compliance
examination, the examiner thoroughly evaluates an institution’s compliance management
system to assess its quality and effectiveness and documents system weaknesses and
violations of federal consumer protection laws and regulations. The EIC starts by
analyzing information about the type, level, and complexity of the institution’s operations,
and begins to develop the scope of the examination and plan for resource deployment to
areas of highest risk. The examination scope will be preliminarily established prior to
entering the financial institution and should be refined through the results of examiner
discussions with the bank’s senior management, compliance officer, and internal auditor.




                                            45
                                                                             Appendix 2

               The FDIC’s Examination Processes
Review and Analysis – Onsite. While onsite at the institution, the examiner may limit
the scope of the compliance review based on reliable procedures and controls in place.
Similarly, the examiner may expand the review based on, for example, management’s
views about compliance, a lack of necessary procedures or controls, the presence of
violations, or the presence of new or significantly amended regulations. The examiner
must consider the size, level, and complexity of an institution’s operations when
evaluating the adequacy of an institution’s compliance management system. The number
of transactions selected and the type of sampling used should be relative to the perceived
risk and the need to assess the level of compliance in an activity or function.

At the conclusion of the review and analysis phase, an examiner:

      summarizes all findings regarding the strengths and weaknesses of an institution’s
       compliance management system;

      determines the causes of programmatic deficiencies or violations and relates them
       to the specific weaknesses in the banks’ compliance management system; and

      identifies actions necessary to address deficiencies or violations.

Determining the causes of program deficiencies or violations is critical to recommending
solutions that will successfully address problem areas and strengthen an institution’s
compliance posture for the future.

Communicating Findings. During this phase, the examiners must discuss findings and
recommendations with management and obtain a commitment for corrective action.
These discussions will be held during the course of the examination and at an exit
meeting with senior management and/or the institution’s BOD.

The results of the examination will also be communicated to the BOD and management
of the institution in an examination report. The examination report provides an account
of the strengths and weaknesses of a compliance management system. It is more than an
exception-based document and should add value to the institution’s compliance efforts.

Key dates used to track compliance examinations are the same as for risk management
examinations. Specifically, key dates measure the time from the Examination Start Date
(when the examination team begins onsite work at the institution), to the Date
Examination Completed (when the draft report is submitted for supervisory review), to
the Date Mailed (when the final report is sent to the institution).




                                            46
                                                                                                  Appendix 3
                        Laws and Rules and Regulations
   Examples of the laws and rules and regulations25 applicable to the FDIC’s examination
   and supervision processes are provided in Table 11.

Table 11: Examples of Laws and Rules and Regulations Applicable to the FDIC’s Examination
and Supervision Processes
Law or Rules and
                                                                     Description
  Regulations

FDI Act Sections
Section 8              The FDIC may issue the following formal actions: termination of federal deposit insurance; cease-
                       and-desist/consent actions; removal, prohibition, and suspension actions; and CMPs. Although not
                       specifically authorized by section 8, the FDIC also may issue informal supervisory actions such as
                       BBRs and MOUs.
Section 10(c)          The FDIC may conduct an investigation outside the scope of an examination to obtain information
                       related to a community bank’s operations and/or its directors, officers, and employees.
Section 38             This section authorizes the FDIC to issue PCA directives to institutions that are deemed to be in one
                       of three Undercapitalized categories.26 Section 38 established PCA, which emphasizes early
                       intervention and regulatory oversight to reduce the prospect of long-term losses to the DIF. PCA
                       requires or permits certain supervisory actions based upon an insured institution's capital level. As
                       the financial condition declines, the corrective measures become more stringent. Ultimately, the
                       appointment of a conservator or a receiver may be required.

FDIC Rules and Regulations
Part 325 – Capital Applies to those circumstances for which the FDI Act or the FDIC Rules and Regulations require an
Maintenance        evaluation of the adequacy of an insured depository institution’s capital structure. The FDIC is
                   required to evaluate an institution’s capital position before approving various applications by
                   insured depository institutions. The FDIC must also evaluate capital as an essential component in
                   determining the safety and soundness of the state nonmember banks it insures and supervises,
                   including PCA compliance.
Section 326.8 –    Requires each FDIC-supervised institution to develop and administer a program to ensure
BSA Compliance     compliance with the BSA and 31 CFR Part 103. The institution’s BOD must approve the
                   compliance program in writing, and the program should include four minimum requirements: a
                   system of internal controls, independent testing, designation of individuals responsible for
                   coordinating and monitoring compliance, and training.
Section 337.6 –    Section 29 of the FDI Act and Part 337.6 of the FDIC Rules and Regulations address restrictions
Brokered Deposits  placed on banks deemed to be less than Well Capitalized for PCA purposes, including brokered
                   deposits and interest-rate risk restrictions.
Part 364 –         As prescribed by Part 364 of the FDIC Rules and Regulations, the federal banking agencies were
Standards for      required to establish certain safety and soundness standards by regulation or by guidelines for all
Safety and         insured depository institutions. More specifically, the FDIC and other federal banking agencies
Soundness          have established appropriate operational and managerial, compensation, and asset quality, earnings,
                   and stock valuation standards.


   25
      Refer to http://www.fdic.gov/regulations/laws/rules/index.html for additional information regarding
   applicable laws and rules and regulations.
   26
      Part 325, subpart B, of the FDIC Rules and Regulations, 12 Code of Federal Regulations (CFR)
   section 325.101, et. seq., implements section 38, Prompt Corrective Action, of the FDI Act, 12 United
   States Code (USC) section 1831(o), by establishing a framework for determining capital adequacy and
   taking supervisory actions against depository institutions that are in an unsafe or unsound condition.
   The following terms are used to describe a financial institution’s capital adequacy: (1) Well Capitalized,
   (2) Adequately Capitalized, (3) Undercapitalized, (4) Significantly Undercapitalized, and (5) Critically
   Undercapitalized.


                                                         47
                                                                                               Appendix 3
                        Laws and Rules and Regulations
Table 11: Examples of Laws and Rules and Regulations Applicable to the FDIC’s Examination
and Supervision Processes
Law or Rules and
                                                                   Description
  Regulations

Consumer Protection Laws
Community          The Community Reinvestment Act encourages federally insured banks to meet the credit needs of
Reinvestment Act   their entire community. Part 345 of the FDIC Rules and Regulations states that each appropriate
                   federal financial supervisory agency is required to assess an institution’s record of helping to meet
                   the credit needs of the local communities in which the institution is chartered, consistent with the
                   safe and sound operation of the institution, and to take this record into account in the agency's
                   evaluation of an application for a deposit facility by the institution.
Equal Credit       The Equal Credit Opportunity Act prohibits certain discriminatory practices, including creditor
Opportunity Act    practices that discriminate based on race, color, religion, national origin, sex, marital status, or age.
(Regulation B)
Fair and Accurate  The Fair and Accurate Credit Transaction Act strengthened the country’s national credit reporting
Credit             system and assists financial institutions and consumers in the fight against identity theft.
Transaction Act
Fair Housing Act   The Fair Housing Act prohibits discrimination based on race, color, religion, national origin, sex,
                   familial status, and handicap in residential real-estate-related transactions.
Home Mortgage      The Home Mortgage Disclosure Act was enacted to provide information to the public and federal
Disclosure Act     regulators regarding how depository institutions are fulfilling their obligations towards community
(Regulation C)     housing needs. The regulation requires an institution to report data to its supervisory agency about
                   home purchase loans, home improvement loans, and refinancings that it originates or purchases, or
                   for which it receives applications; and to disclose certain data to the public.
Real Estate        RESPA covers loans secured with a mortgage placed on a one-to-four family residential property.
Settlement         These include most home purchase loans, assumptions, refinances, property improvement loans, and
Procedures Act     equity lines of credit. RESPA requires that borrowers receive disclosures at various times. Some
(RESPA)            disclosures spell out the costs associated with the settlement, outline lender servicing and escrow
                   account practices, and describe business relationships between settlement service providers.
Truth in Lending   Contained in Title I of the Consumer Credit Protection Act, the Truth in Lending Act requires
Act                meaningful disclosure of credit and leasing terms. According to Section 226.1 of the FDIC Rules
(Regulation Z)     and Regulations, the purpose of the implementing regulations is to promote the informed use of
                   consumer credit by requiring disclosures about its terms and cost. The regulations also include
                   substantive protections to consumers.
Unfair or          Section 5 of the Federal Trade Commission Act (FTC Act) prohibits unfair or deceptive acts or
Deceptive Acts or  practices in or affecting commerce. The prohibitions apply to all persons engaged in commerce,
Practices          including banks. The prohibitions do not limit any agency’s authority to enforce the FTC Act with
(Regulation AA)    respect to any other unfair or deceptive acts or practices. An act or practice is unfair where it causes
                   or is likely to cause substantial injury to consumers, cannot be reasonably avoided by consumers,
                   and is not outweighed by countervailing benefits to consumers or to competition. An act or practice
                   is deceptive where a representation, omission, or practice misleads or is likely to mislead the
                   consumer or the consumer’s interpretation of the representation, omission, or practice, and the
                   misleading representation, omission, or practice is material.
Sources: FDIC OIG review of the FDI Act and FDIC Rules and Regulations; FDIC OIG Semiannual Report to the
Congress, April 1, 2008 – September 30, 2008; Department of Housing and Urban Development Web site; Federal Trade
Commission Web site; and coordination with DCP officials.




                                                        48
                                                                                          Appendix 4

         Examiner and Financial Institution Guidance
The FDIC uses various means, some of which are indicated below, to communicate
policy and examination guidance to its examination staff and supervised and insured
financial institutions.

RD Memoranda and FILs. The FDIC has issued extensive guidance in the form of RD
Memoranda and FILs to assist examiners and financial institutions in carrying out their
responsibilities. RD Memoranda and FILs have been issued on a variety of matters of
principal interest to those responsible for examining or operating a bank or savings
association such as, but not limited to, the UFIRS (CAMELS) rating system; capital, de
novo financial institutions, executive compensation, enforcement actions, PCA, and
BSA/AML compliance.

Examination Manuals. The FDIC has issued extensive guidance in the form of
examination manuals to assist examiners in conducting examinations of financial
institutions and making appropriate decisions regarding the supervision of those
institutions. For example:

        The Risk Management Manual of Examination Policies provides guidance on
         such significant issues as, but not limited to, basic examination concepts and
         guidelines, CAMELS, risk-scoping activities, visitations, limited scope
         examinations, de novo financial institutions, reliance on and acceptance of state
         examinations, and examination work papers. Although this manual provides
         policy guidance and direction to examiners that should be applied in the risk
         management examination process, other manuals and/or policy pertaining to
         additional areas of examination interest, such as trust department operations,
         brokered deposits, commercial real estate, and loan modifications have also been
         developed.27

        The Compliance Examination Manual provides guidance on issues such as, but
         not limited to, community reinvestment; fair lending laws and regulations;
         compliance lending issues, including truth in lending, real estate settlement
         procedures, homeowners protection, flood insurance, and home mortgage
         disclosure; abusive lending practices; and consumer privacy issues.28

        The FFIEC BSA/Anti-Money Laundering Examination Manual (BSA/AML
         Manual) provides guidance for BSA/AML-related examinations. The manual
         also provides guidance on identifying and controlling risks associated with money
         laundering and terrorist financing. The manual contains an overview of
         BSA/AML compliance program requirements, BSA/AML risks and risk
         management expectations, industry sound practices, and examination procedures.

27
   Refer to http://www.fdic.gov/regulations/safety/manual/ for additional information regarding the Risk
Management Manual of Examination Policies.
28
   Refer to http://www.fdic.gov/regulations/compliance/manual/index_pdf.html for additional information
on the FDIC’s Compliance Examination Manual.


                                                   49
                                                                                          Appendix 4

         Examiner and Financial Institution Guidance
         The manual was developed through a collaborative effort by the federal and state
         banking agencies and the Financial Crimes Enforcement Network, a bureau of the
         U.S. Department of the Treasury, to ensure consistency in the application of the
         BSA/AML requirements.29

        The Case Manager Procedures Manual30 provides guidance to case managers
         who are responsible for assisting in the identification of risk and supervision for a
         caseload of banks assigned to them. According to the manual:

                The primary goal of the FDIC’s Case Manager program is to enhance risk
                 assessment and supervision activities by assigning responsibility and
                 accountability for a caseload of institutions or companies to one
                 individual, regardless of charter and location, and by encouraging a more
                 proactive, but non-intrusive, coordinated supervisory approach.

                An equally important goal of this program is to promote better
                 communication and coordination between the FDIC, other regulators, and
                 the banking industry so that a consistent regulatory voice is presented,
                 while minimizing regulatory burden to the extent possible.

                The emphasis of the program is to ensure that the level of regulatory
                 oversight applied to an institution is commensurate with the level of risk it
                 poses to the DIF.

        The FIAP Manual31 provides guidance on formal and informal corrective actions,
         such as cease and desist orders, termination of insurance coverage, PCA, CMPs,
         BBRs, and MOUs. The FIAP Manual is intended to support the FDIC’s field,
         regional, and headquarters offices in their efforts to determine the authorities and
         circumstances under which formal or informal actions should be considered
         and/or the monitoring of actions imposed against FDIC-supervised financial
         institutions.
                                                                             32
Examination Documentation (ED) Modules. The ED Modules              are an examination
tool that focuses on risk management practices and guides examiners to establish the
appropriate examination scope. The modules incorporate questions and points of
consideration into examination procedures to specifically address a bank’s risk
management strategies for each of its major business activities. Although examiner use
of the ED Modules is discretionary, the modules direct examiners to consider areas of

29
   Refer to http://www.ffiec.gov/bsa_aml_infobase/default.htm for additional information regarding the
BSA/AML Manual. The Department of the Treasury’s Office of Foreign Assets Control (OFAC) also
assisted in developing sections of the BSA/AML Manual that relate to OFAC reviews.
30
   The FDIC’s Case Manager Procedures Manual is not available online.
31
   The FDIC’s FIAP Manual is not available online.
32
   The FDIC’s ED Modules are not available online.


                                                   50
                                                                            Appendix 4

       Examiner and Financial Institution Guidance
potential and associated risk control practices, thereby facilitating a more effective
supervisory program. Guidance included in the ED Modules addresses issues such as:

      risk scoping activities,
      capital adequacy,
      loan portfolio management and review,
      earnings and liquidity,
      commercial and residential real estate lending,
      real estate appraisals, and
      subprime lending.




                                           51
                                                                                         Appendix 5

                                  Examiner Training
The FDIC recognizes that training is an essential component of employee development
and effective bank supervision and is committed to developing and maintaining a
qualified examination workforce. The information presented below provides a synopsis
of some of the methods that the FDIC uses to provide examiner training activities.33

FDIC Corporate University. The FDIC launched the Corporate University during the
second quarter of 2003 to provide a more customized approach to training the FDIC’s
workforce. The Corporate University offers career-long learning and development
opportunities to meet the FDIC’s workforce needs; new employee and skills training; and
career, professional, and leadership development. In addition, the Corporate University
has primary responsibility for the effective and efficient establishment, implementation,
design, deliverance, maintenance, and evaluation of the FDIC’s learning and professional
development programs. The Corporate University provides opportunities for employees
to learn more about the FDIC’s major program areas of supervision (risk management
and compliance), resolutions, and insurance and offers various courses related to each of
these areas.

Required Curriculum for Commissioned Examiners. The FDIC has established a risk
management and compliance training program in which examiners complete a specific
course curriculum and OJT before becoming commissioned examiners. The curriculum
consists of (1) introduction to examinations, (2) financial institution analysis, (3) loan
analysis, (4) examination management, and (5) asset liability management. The
curriculum for compliance pre-commissioned examiners includes: (1) introduction to
compliance examinations, (2) compliance management, (3) CRA, and (4) fair lending. In
addition, these courses include examiners from other federal and state regulatory
agencies, contributing to a consistent framework of instruction and a cross-sharing of
experiences.

Established Benchmarks. The FDIC issued benchmarks for risk management and
compliance examiner training in August 2004 that outline the duties and responsibilities
that fully successful examiners must demonstrate at each level of their career. The FDIC
periodically updates the benchmarks to provide additional guidance to examiners
regarding training requirements.

OJT Guides. The FDIC has published OJT guides for both RMS and compliance/CRA-
related examinations. In June 2010, DSC (now RMS) updated online OJT reference
guides for risk management and compliance examinations.

            The OJT guides provide instruction on issues such as allowance for loan and
             lease losses, capital, liquidity, loan analysis, and internal controls. According
             to the June 2010 transmittal memorandum, the OJT guide is an informal tool
             for pre-commissioned examiners, including assistant examiners, mid-career
33
   Refer to http://www.fdic.gov/regulations/examiner/ for additional information on the FDIC’s examiner
training activities.


                                                   52
                                                                      Appendix 5

                      Examiner Training
    examiners, newly-hired examiners, and interns. The optional use of the guide,
    along with classroom-based instruction, promotes consistent training for
    examination staff. The RMS guide is not intended to be a “step-by-step
    instruction manual” and should be used in conjunction with other FDIC
    guidance such as the Examination Manual, outstanding examination
    guidelines, and the ED Modules.

   The FDIC’s compliance OJT guide is designed to support the pre-
    commissioned examiner’s development through the commissioning process.
    According to the June 2010 update, the compliance guide is a formal OJT tool
    for pre-commissioned examiners, including assistant examiners, mid-career
    examiners, newly-hired examiners, and interns. The compliance guide
    identifies examination tasks and instructions for pre-commissioned examiners,
    as well as coaching guidelines for supervisors and trainers, but is not intended
    to be a “how to manual” or the sole resource needed for commissioning
    requirements. The training modules in the guide are not all-inclusive of a
    pre-commissioned examiner’s ongoing duties and responsibilities and should
    be used in conjunction with other examination resources, including online and
    classroom instruction. The guide is a mandatory training tool for pre-
    commissioned compliance examiners.




                                     53
                                                                                           Appendix 6

                                 FFIEC Task Forces
The FFIEC has six task forces that assist the Council in achieving its mission. More
specifically, each task force is composed of six senior officials, consisting of
representatives from each of the five member agencies and a representative of the SLC.
As indicated in Table 12, each of the six FFIEC Task Forces is responsible for
addressing/overseeing matters of great significance and that contribute to examination
and supervision consistency.

Table 12: FFIEC Task Forces and Related Responsibilities and Duties
   FFIEC
   TASK                                       DESCRIPTION OF TASK FORCE
  FORCE
 Examiner       Responsible for overseeing the FFIEC’s examiner education program on behalf of the Council.
 Education      The task force promotes interagency education through timely, cost-efficient, state-of-the-art
                training programs for agency examiners and staff. The task force develops programs on its own
                initiative and in response to requests from the Council, Council task forces, and suggestions
                brought forth by Examiner Education Office staff. The task force staff schedules, delivers, and
                evaluates training programs throughout the year. In 2011, the number of people who attended
                task force-sponsored training totaled 3,164.
 Supervision    Coordinates and oversees matters relating to safety and soundness supervision and examination
                of depository institutions. It provides a forum for Council members to promote quality,
                consistency, and effectiveness in examination and supervisory practices. While significant issues
                are referred, with recommendations, to the Council for action, the Council has delegated to the
                task force the authority to make certain decisions and recommendations, provided all task force
                members agree.
 Reports        The law establishing the Council and defining its functions requires the Council to develop
                uniform reporting systems for federally supervised financial institutions and their holding
                companies and subsidiaries. Accordingly, the Council established the Task Force on Reports,
                which helps to develop inter-agency uniformity in the reporting of periodic information that is
                needed for effective supervision and other public policy purposes.
 Information    Promotes the sharing of electronic information among the FFIEC agencies in support of
 Sharing        supervision, regulation, and deposit insurance responsibilities of financial institution regulators.
                The task force provides a forum for FFIEC members to discuss and address issues affecting the
                quality, consistency, efficiency, and security of interagency information sharing. Significant
                matters are referred, with recommendations, to the Council for action, and the task force has
                delegated authority to take certain actions. To the extent possible, the agencies build on each
                other’s information databases to minimize duplication of effort and promote consistency.
 Surveillance   Oversees the development and implementation of uniform interagency surveillance and
 Systems        monitoring systems and discusses best practices to be used in those systems and to consider the
                development of new financial analysis tools. The principal objective is to develop and produce
                the Uniform Bank Performance Report presenting financial data and peer group statistics on
                financial institutions. These reports are important tools for completing supervisory evaluations of
                a financial institution’s condition and performance, as well as for planning onsite examinations.
                The banking agencies use the data from these reports to identify potential or emerging problems
                in insured banks.
 Consumer       Promotes policy coordination, a common supervisory approach, and uniform enforcement of
 Compliance     consumer protection laws and regulations. The task force identifies and analyzes emerging
                consumer compliance issues and develops proposed policies and procedures to foster consistency
                among the agencies. Additionally, the task force reviews legislation, regulations, and policies at
                the state and federal level that may have a bearing on the compliance responsibilities of the
                member agencies.
Source: FFIEC 2011 Annual Report.



                                                   54
                                                                                   Appendix 7

                             Glossary of Terms
     Term                                            Definition
 Administrative    In 1989, FIRREA directed the federal banking agencies to establish a pool
Law Judge (ALJ)    of ALJs to conduct hearings. In 1991, OFIA was created as the executive
                   body responsible for processing administrative enforcement proceedings
                   brought by the FDIC, OCC, FRB, or NCUA. The OFIA ALJ, an
                   independent judicial officer, conducts hearings and rules on allegations of
                   banking law violations initiated by one of the four federal banking agencies.

  Bank Board       A BBR is an informal commitment adopted by a financial institution’s BOD
Resolution (BBR)   (often at the request of the FDIC), directing the institution’s personnel to
                   take corrective action regarding specific noted deficiencies. A BBR may
                   also be used as a tool to strengthen and monitor the institution’s progress
                   with regard to a particular component rating or activity.

Bank Secrecy Act   Codified at 31 USC 5311-5330, it gives the Department of the Treasury
 of 1970 (BSA)     broad powers to implement AML regulations for financial institutions.
                   Such regulations are implemented by the Department of the Treasury
                   through 31 CFR Part 103. The Act consists of two Titles: Title I, Financial
                   Recordkeeping, and Title II, Reports of Currency and Foreign Transactions.
                   Title I authorizes the Department of the Treasury to issue regulations
                   requiring insured financial institutions to maintain certain records related to
                   financial transactions. Title II directs the Department of the Treasury to
                   prescribe regulations governing the reporting of certain transactions by and
                   through financial institutions in excess of $10,000 into, out of, and within
                   the United States.

   CAMELS          Financial institution regulators and examiners use the Uniform Financial
                   Institutions Rating System (UFIRS) to evaluate a bank’s performance in six
                   components represented by the CAMELS acronym. The six component
                   areas are known as the CAMELS rating system (Capital adequacy, Asset
                   quality, Management, Earnings, Liquidity, and Sensitivity to market risk).
                   Evaluations of CAMELS components consider the institution’s size and
                   sophistication, the nature and complexity of its activities, and its risk
                   profile. At risk management examinations, an institution is rated for each
                   of the CAMELS components and assigned a composite rating, which
                   generally bears a close relationship to the component ratings. The
                   component and composite ratings are scored on a scale of 1 (best) to 5
                   (worst).

 Case Manager      Case managers are responsible for assisting in the identification of risk and
                   supervision for a caseload of banks assigned to them. The Case Manager
                   program helps to (1) enhance risk assessment and supervision activities by
                   assigning responsibility and accountability for a caseload of institutions or
                   companies to one individual, regardless of charter and location, and by
                   encouraging a more proactive, but non-intrusive, coordinated supervisory
                   approach; (2) promote better communication and coordination between the
                   FDIC, other regulators, and the banking industry; and (3) ensure that the


                                              55
                                                                                   Appendix 7

                             Glossary of Terms
     Term                                              Definition
                   level of regulatory oversight applied to an institution is commensurate with
                   the level of risk it poses to the DIF.

Cease and Desist   A cease and desist order is a formal enforcement action issued by a
    Order          financial institution regulator to a bank or affiliated party to stop an unsafe
                   or unsound practice or a violation of laws and regulations. A cease and
                   desist order may be terminated under certain circumstances, including when
                   the bank’s condition has significantly improved and the action is no longer
                   needed or the bank has materially complied with its terms.

  Civil Money      CMPs can be imposed on financial institutions for violations of: final and
Penalties (CMP)    temporary orders, written agreements with the FDIC, laws and regulations,
                   and breaches of fiduciary duty. The Financial Institutions Regulatory and
                   Interest Rate Control Act of 1978 granted the FDIC authority to levy CMPs
                   against both insured financial institutions and individuals for violations of
                   statutes. The Financial Institutions Reform, Recovery, and Enforcement Act
                   of 1989 broadened the scope of conduct for which CMPs can be assessed
                   and significantly increased the amount of the permissible penalties.

 Conference of     CSBS works to:
  State Bank             optimize the authority of individual states to determine the activities
  Supervisors             of their financial institutions;
    (CSBS)               enhance the professionalism of state banking departments and their
                          personnel;
                         represent the interests of the state banking system to federal and state
                          legislative and regulatory agencies; and
                         ensure that all banks continue to have the choice and flexibility of
                          the state charter in the new era of financial modernization.

    FDIC           The FDIC’s supervision program promotes the safety and soundness of
  Supervision      FDIC-supervised institutions, protects consumers’ rights, and promotes
   Program         community investment initiatives by FDIC-supervised institutions. The
                   FDIC’s:

                         RMS (1) performs risk management examinations of FDIC-
                          supervised institutions to assess their overall financial condition,
                          management policies and practices (including internal control
                          systems), and compliance with applicable laws and regulations;
                          (2) issues related guidance to institutions and examiners; and
                          (3) conducts specialty examinations, which are usually conducted
                          during risk management examinations and include coverage of trust
                          departments, information technology, and institution compliance
                          with the BSA.




                                              56
                                                                                  Appendix 7

                              Glossary of Terms
     Term                                           Definition
                          DCP conducts examinations to assess an institution’s compliance
                           with consumer protection statutes and regulations for all state
                           nonmember banks that are not subject to the primary jurisdiction of
                           the Consumer Financial Protection Bureau (CFPB). As part of the
                           compliance examination process, the FDIC reviews substantive
                           compliance issues as well as the accuracy and completeness of
                           information and disclosures that institutions provide to consumers.
                           The FDIC also conducts CRA performance evaluations for all state
                           nonmember banks.

Federal Financial   The FFIEC is a formal interagency body empowered to: (1) prescribe
  Institutions      uniform principles, standards, and report forms for the federal examination
  Examination       of financial institutions by the FRB, FDIC, NCUA, OCC, and CFPB; and
Council (FFIEC)     (2) make recommendations to promote uniformity in the supervision of
                    financial institutions.

 Guidelines for     As required by Section 309(a) of the Riegle Act (Public Law No. 103-325,
   Appeals of       108 Stat. 2160), the FDIC is required to establish an independent intra-
    Material        agency appellate process to review material supervisory determinations
  Supervisory       made at insured depository institutions that it supervises. The Guidelines
 Determinations     for Appeals describe the types of determinations that are eligible for review
 (Guidelines for    and the process by which appeals will be considered and decided. The
    Appeals)        procedures set forth in these guidelines establish an appeals process for the
                    review of material supervisory determinations by the SARC.

    Material        As outlined in the FDIC’s Guidelines for Appeals, material supervisory
  Supervisory       determinations may include, but are not limited to: ratings assigned by
 Determinations     examiners, including CAMELS and compliance/CRA ratings; conclusions
                    regarding the adequacy of the bank’s allowance for loan and lease losses;
                    and other supervisory determinations that may impact the bank’s capital,
                    earnings, or capital category for PCA purposes, or otherwise affect the
                    nature and level of supervisory oversight accorded an institution.

Memorandum of       An MOU is an informal agreement between the institution and the FDIC,
Understanding       which is signed by both parties. The State Authority may also be party to
   (MOU)            the agreement. MOUs are designed to address and correct identified
                    weaknesses in an institution’s condition.

 Problem Bank       A problem financial institution is defined as any insured institution which
 Memorandum         has been assigned a composite rating of 4 or 5 by its primary federal
                    regulator or by the FDIC. A problem bank memorandum documents the
                    FDIC’s concerns with an institution and the corrective action in place or to
                    be implemented. While an institution assigned a composite rating of 3 is
                    not usually considered to be a problem institution, a problem bank
                    memorandum is required on larger institutions assigned a composite rating



                                              57
                                                                                    Appendix 7

                              Glossary of Terms
     Term                                             Definition
                    of 3 as a means to document the FDIC’s concerns and plans, due to the
                    potential risk to the DIF. The problem bank memorandum is also used to
                    effect interim rating changes in the FDIC’s systems.

    Prompt          The purpose of PCA is to resolve the problems of insured depository
Corrective Action   institutions at the least possible long-term cost to the DIF. Part 325, subpart
     (PCA)          B, of the FDIC Rules and Regulations, 12 CFR section 325.101, et. seq.,
                    implements section 38, Prompt Corrective Action, of the FDI Act, 12 USC
                    section 1831(o), by establishing a framework for determining capital
                    adequacy and taking supervisory actions against depository institutions that
                    are in an unsafe or unsound condition. The following terms are used to
                    describe capital adequacy: (1) Well Capitalized, (2) Adequately Capitalized,
                    (3) Undercapitalized, (4) Significantly Undercapitalized, and (5) Critically
                    Undercapitalized.

                    A PCA Directive is a formal enforcement action seeking corrective action
                    or compliance with the PCA statute with respect to an institution that falls
                    within any of the three categories of undercapitalized institutions.

 Supervision        Section 309(a) of the Riegle Act (Public Law No. 103-325, 108 Stat. 2160),
Appeals Review      required the FDIC to establish an independent intra-agency appellate
  Committee         process to review material supervisory determinations made at insured
   (SARC)           depository institutions that it supervises. In addition, the Riegle Act
                    requires the FDIC to hear and decide appeals in an expeditious manner and
                    protect appellants from retaliation by agency examiners.

   Uniform          Refer to the definition for CAMELS.
   Financial
  Institutions
 Rating System
   (UFIRS)

    Uniform         For compliance/CRA examinations, financial institution regulators and
  Interagency       examiners use the Uniform Interagency Consumer Compliance Rating
   Consumer         System (Rating System) approved by the FFIEC. Under the uniform rating
  Compliance        system, each financial institution is assigned a consumer compliance rating
 Rating System      predicated upon an evaluation of the nature and extent of its present
                    compliance with consumer protection and civil rights statutes and
                    regulations and the adequacy of its operating systems designed to ensure
                    compliance on a continuing basis. The rating system is based upon a scale
                    of 1 through 5 in increasing order of supervisory concern.




                                               58
                                                                           Appendix 8
                              Acronyms
Acronym   Explanation
ALJ       Administrative Law Judge
AML       Anti-Money Laundering
BBR       Bank Board Resolution
BOD       Board of Directors
BSA       Bank Secrecy Act
CAMELS    Capital, Asset Quality, Management, Earnings, Liquidity and Sensitivity to
          Market Risk
CFPB      Consumer Financial Protection Bureau
CMP       Civil Money Penalty
CRA       Community Reinvestment Act
CSBS      Conference of State Bank Supervisors
DCP       Division of Depositor and Consumer Protection
DIF       Deposit Insurance Fund
DIR       Division of Insurance and Research
DSC       Division of Supervision and Consumer Protection
ED        Examination Documentation
EIC       Examiner-in-Charge
FDI       Federal Deposit Insurance
FFIEC     Federal Financial Institutions Examination Council
FIAP      Formal and Informal Action Procedures
FIL       Financial Institution Letter
FIRREA    Financial Institutions Reform, Recovery, and Enforcement Act of 1989
FRB       Board of Governors of the Federal Reserve System
ICRS      Internal Control and Review Section
MOU       Memorandum of Understanding
NCUA      National Credit Union Administration
OATS      Ombudsman Automated Tracking System
OCC       Office of the Comptroller of the Currency
OCFI      Office of Complex Financial Institutions
OFAC      Office of Foreign Assets Control
OFIA      Office of Financial Institution Adjudication
OIG       Office of Inspector General
OJT       On-the-Job Training
OLA       Office of Legislative Affairs
OO        Office of the Ombudsman
PCA       Prompt Corrective Action
RD        Regional Directors
RMS       Division of Risk Management Supervision
ROE       Report of Examination
SARC      Supervision Appeals Review Committee
SBC       Senate Committee on Banking, Housing, and Urban Affairs
SLC       State Liaison Committee
UFIRS     Uniform Financial Institutions Rating System
ViSION    Virtual Supervisory Information on the Net


                                      59
                                                                                     Appendix 9
                    Corporation Comments
_____________________________________________________________




Federal Deposit Insurance Corporation
550 17th Street NW, Washington, D.C. 20429-9990                         Division of Risk Management Supervision


                                                           August 29, 2012

 Jon T. Rymer
 Inspector General
 Federal Deposit Insurance Corporation
 3501 Fairfax Drive, Arlington, VA
 Arlington, VA 22226

 Re: Response to Draft Audit Report Entitled The FDIC’s Examination Process for Small
 Community Banks (2012-041)

 Dear Mr. Rymer:

 The FDIC has reviewed the Inspector General’s (IG) draft report entitled, “The FDIC’s
 Examination Process for Small Community Banks” (Draft Report). We appreciate the Draft
 Report’s thoroughness and the opportunity to comment on its findings. The Draft Report
 acknowledges that the FDIC has implemented a nationwide program for planning, conducting,
 reporting and evaluating the effectiveness of our examination of FDIC-supervised community
 institutions and contains no recommendations for improvement in any of the areas under review.

 We concur that the examination cycle and report processing timeframes increased as a result of
 the deteriorating condition of examined institutions and the complexity associated with an
 increasing number of troubled institutions. In this respect, the Draft Report recognizes that the
 FDIC’s processes and controls continued to evolve during this time. It also notes the FDIC’s
 longstanding quality control practices that promote consistency in the examination process and
 encourage examiners and bankers to make good-faith attempts to resolve disputes through
 informal discussions during examinations.

 With respect to the formal dispute resolution process, the Draft Report confirmed the FDIC’s
 analysis that the 2007-2009 financial crisis and related CAMELS rating changes were largely
 responsible for a number of formal reviews and appeals not being processed within the agency’s
 self-imposed timeframes. The FDIC Board of Directors approved changes to the decisional
 deadlines in early 2010 that rectified these types of delays. These changes have enabled formal
 review and appeals to be analyzed and processed within more realistic timeframes. Since being
 implemented, the new decisional deadlines have been met with only one minor exception.

 Finally, the Draft Report recognizes the various initiatives the FDIC has undertaken to further its
 dialogue with community banks, including the establishment of the FDIC’s Advisory Committee
 on Community Banking, as well as other steps the agency has undertaken to ensure important
 community banking-related issues are identified, discussed and addressed. In addition, the Draft
 Report notes the FDIC is also developing guidance to assist community banks and smaller
 institutions understand and appropriately implement new and revised rules and regulations.




                                                  60
                                                                                    Appendix 9
                       Corporation Comments
   _____________________________________________________________

Mr. Jon T. Rymer
August 29, 2012
Page 2

The FDIC believes these efforts ensure the accuracy and fairness of the examination program
and related dispute resolution processes for individual institutions, as well as the consistent
treatment and application of examination procedures among all FDIC-supervised institutions. As
such, we are pleased your Draft Report affirms FDIC’s ongoing commitment to maintain a
dynamic and responsive examination process as well as prudent and safe and sound banking
standards.

Thank you for the opportunity to review the Draft Report.


                                                      Sincerely,

                                                      /signed/

                                                      Sandra L. Thompson
                                                      Director
                                                      Division of Risk Management Supervision




                                                 61
